<html>
<title> - [H.A.S.C. No. 112-32]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2012 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 112-32]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

              BUDGET REQUEST FOR MISSILE DEFENSE PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 31, 2011



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                      U.S. GOVERNMENT PRINTING OFFICE
  65-803                   WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>  




                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                 Kari Bingen, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, March 31, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Request for Missile Defense Programs......     1

Appendix:

Thursday, March 31, 2011.........................................    33
                              ----------                              

                        THURSDAY, MARCH 31, 2011
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Strategic Forces.......................     3
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Ahern, David G., Deputy Assistant Secretary of Defense, Portfolio 
  Systems Acquisition, Office of the Under Secretary of Defense 
  for Acquisition, Technology and Logistics......................     9
Gilmore, Hon. J. Michael, Director, Operational Test and 
  Evaluation, Office of the Secretary of Defense.................    11
O'Reilly, LTG Patrick J., USA, Director, Missile Defense Agency..     6
Roberts, Dr. Bradley H., Deputy Assistant Secretary of Defense, 
  Nuclear and Missile Defense Policy, Office of the Secretary of 
  Defense........................................................     4

                                APPENDIX

Prepared Statements:

    Ahern, David G...............................................    72
    Gilmore, Hon. J. Michael.....................................    85
    O'Reilly, LTG Patrick J......................................    57
    Roberts, Dr. Bradley H.......................................    42
    Sanchez, Hon. Loretta........................................    40
    Turner, Hon. Michael.........................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Larsen...................................................    95

Questions Submitted by Members Post Hearing:

    Mr. Brooks...................................................   110
    Mr. Lamborn..................................................   109

    Ms. Sanchez..................................................   101
    Mr. Turner...................................................    99
 
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Thursday, March 31, 2011.
    The subcommittee met, pursuant to call, at 2:06 p.m. in 
room 2212, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. I call to order the meeting of the 
subcommittee.
    And I would like to extend a warm welcome to our four 
distinguished witnesses here today to discuss the fiscal year 
2012 budget request for missile defense programs: Dr. Bradley 
Roberts, Deputy Assistant Secretary of Defense for Nuclear and 
Missile Defense Policy; Lieutenant General Patrick O'Reilly, 
Director of the Missile Defense Agency; and Dr. David Ahern, 
Deputy Assistant Secretary of Defense for Portfolio Systems 
Acquisition; Dr. Michael Gilmore, Director of Operational Test 
and Evaluation.
    Members have several issues that they want to address, and 
we have votes that are actually pending, so I am hopeful that 
we can get through my opening statement and the statement of 
the witnesses before we actually depart for votes. And then 
perhaps we can return for the questioning portion.
    First, I am deeply concerned about the Ground-Based 
Midcourse Defense system in Alaska and California, GMD. The 
back-to-back flight test failures this past year raise doubts 
about the reliability and effectiveness of this capability. I 
had the opportunity to talk with General O'Reilly yesterday. I 
appreciate his efforts to establish a rigorous failure review 
and mitigation process. However, I question the 
Administration's long-term commitment to getting it right.
    While I understand there are some changes to the program 
this year, I have also observed the funding for GMD plummet 
over the past few years. In fiscal year 2010, the President's 
budget request slashed it by $445 million. Last year we saw a 
restoration of some funds, but then again this year the program 
was cut by $185 million. Furthermore, the out-year spending 
profile for GMD is $1 billion less than was projected a year 
ago.
    With these levels of cuts, it is clear that something will 
be broke or something won't get done. I worry that these test 
failures may be a harbinger of further setbacks if we don't 
make GMD a priority and devote the resources necessary to make 
it right. After all, what is at stake: GMD is currently the 
only missile defense system that protects the United States 
homeland from long-range ballistic attacks, and we have to get 
it right.
    General O'Reilly, I know you are committed to that.
    Second, a year ago, I was highly critical of the 
Administration for the lack of information it was providing to 
Congress on the Phased Adaptive Approach for missile defense in 
Europe. In the past several months, we have seen significant 
improvement and engagement with our committee, and I want to 
commend our witnesses for that.
    Last month, while in Brussels, I had the opportunity to 
meet with Admiral Stavridis and other NATO [North Atlantic 
Treaty Organization] and European Command officials to discuss 
progress in PAA [Phased Adaptive Approach] implementation. I 
have also met with NATO parliamentarians and was pleased to see 
how far the missile defense discussion in Europe had advanced 
from just 3 years ago.
    No doubt, there is significant work ahead that I would ask 
our witnesses to discuss today.
    On the policy front, a near-term decision must be made on 
where to locate a forward-based X-band radar. Charting a path 
forward with Russia while also protecting our interests will 
continue to be challenging.
    On the programmatic front, there is a substantial amount of 
development and testing required to ensure new systems and 
technologies planned for the PAA are proven. There are still 
considerable technology risks, reduction activities that must 
be accomplished in the--excuse me--technology risk-reduction 
activities that must be accomplished in the Standard Missile 
(SM)-3 Block IIA and the Block IIB programs, both of which are 
key to protecting Europe and the United States.
    Some of us also remain concerned about the Department's 
hedging strategy for defense of the homeland in case the long-
range threat comes earlier or technical issues arise in the 
development of a new SM-3 interceptor. I came away from our PAA 
hearing last December believing that the Department's hedging 
strategy was hollow. Since then, I understand the Department 
has worked in earnest to develop the strategy, and I hope our 
witnesses can discuss some of this.
    Third, the budget request contains approximately $400 
million in 2012 and another $400 million in 2013 for the Medium 
Extended Area Defense System, MEADS, a joint U.S.-German-
Italian missile defense system that the Department does not 
plan to continue beyond design and development due to cost and 
schedule overruns. I understand the Government's contract 
termination obligations, but spending $800 million in this 
budget environment on a program that is not going forward into 
production doesn't make a whole lot of sense. These resources 
could be better spent on other missile defense priorities. And 
is the Department looking at other options to lower this 
liability?
    Fourth, we need to continue to invest in innovative science 
and technology. Last year, our committee expressed bipartisan 
concern that the budget request for directed energy research 
appeared insufficient to maintain the Airborne Laser Testbed 
aircraft, conduct flight experiments, and fund technology 
maturation of innovative directed energy concepts. This year, 
the budget request is less than last year's, which only 
heightens my concern that MDA [Missile Defense Agency] and the 
scientists and engineers it leverages lack the resources to 
make major advancements in this technology area.
    On a final note, I would like to thank Dr. Roberts and 
General O'Reilly for their participation in this committee's 
``101'' briefings. These sessions have provided Members with a 
greater understanding of the complex issues and programs that 
are within our subject matter jurisdiction of this subcommittee 
and, ultimately, they improve our ability to have effective 
oversight.
    I want to thank you again, each of our witnesses, for their 
service and for being with us today. And I look forward to your 
testimony.
    With that, I will turn to my ranking member, Ms. Sanchez, 
for any opening comments she might have.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 37.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
  CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Ms. Sanchez. Thank you, Chairman Turner.
    I would like to once again welcome everybody: Dr. Gilmore, 
Mr. Ahern, Dr. Roberts, General O'Reilly. Thanks for being 
before us again today.
    I am interested in hearing about how the budget request 
supports plans to strengthen the hedge for homeland defense 
beyond the deployed interceptors that we have in California and 
Alaska, including plans at Fort Greely to mothball Missile 
Field 1 and adding a hedge of eight available silos at Missile 
Field 2, and also the upgrades to the Clear Radar, plans to 
locate an interceptor communication system on the east coast, 
and preparations toward Phase 4 of the Phased Adaptive 
Approach.
    I know that, General O'Reilly, we have spoken several times 
this week, and I hope that the committee will get a good sense 
of where you all are with respect to these things I just 
mentioned.
    I also look forward to hearing about the implementation of 
the PAA this year and about preparations as we move beyond 
Phase 1. I know you said we were on track, but maybe we can get 
a little bit more information on that. And I would like to 
specifically address three important issues.
    First, the cost. The Ballistic Missile Defense Review 
stated that, ``commitment to new capabilities must be 
sustainable over the long term.'' And in the context of the 
current budget environment, I would like to hear more about 
savings and management improvements resulting from efficiencies 
and, also, what the plans are for most efficiently closing out 
the MEADS program without wasting what I believe is nearly 
about a billion dollars of taxpayer money, if I read the report 
correctly.
    And, second, on testing, BMDR [Ballistic Missile Defense 
Review] made the commitment that, before new capabilities are 
deployed, they must undergo testing that enables assessment 
under realistic conditions. So I would like to hear about how 
the budget request supports effective testing to help us 
achieve mature and reliable technologies, including plans in 
the Integrated Master Test Plan for operational realistic 
testing.
    And, third, I would like to thank the Administration for 
strengthening the international cooperation with our allies. I 
know that Chairman Turner was out in Europe this past week. I 
didn't have an opportunity to go, but I did hear good reports 
back. And I heard that especially our NATO allies were all on 
board and happy with the PAA and the process that we are going 
through. And, beyond cooperation with NATO and Israel and Japan 
and our other allies, I am pleased that we continue to keep 
informed on plans as you work through with some of the issues 
and try to engage Russia on missile defense.
    So, preserving strategic stability is essential to U.S. and 
international security as we develop a defense against the 
threats from Iran and North Korea, in particular. And I am open 
to hearing what you all have to say. And I am sure our 
committee has many questions.
    So thank you again for being before us.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 40.]
    Mr. Turner. We will now ask each of our witnesses to 
summarize their written statement in about a 5-minute oral 
statement.
    Dr. Roberts, the floor is yours.

STATEMENT OF DR. BRADLEY H. ROBERTS, DEPUTY ASSISTANT SECRETARY 
 OF DEFENSE, NUCLEAR AND MISSILE DEFENSE POLICY, OFFICE OF THE 
                      SECRETARY OF DEFENSE

    Dr. Roberts. Thank you, Chairman Turner, Ranking Member 
Sanchez, and additional members of the subcommittee.
    Thank you also for the opportunity to participate in the 
BMD [ballistic missile defense] 101 sessions. We also found 
that helpful from our perspective in terms of reaching out to 
you and creating a common foundation of information.
    My written statement begins with a review of the scope, 
findings, and conclusions of the Ballistic Missile Defense 
Review issued now a year ago. I won't repeat these here. 
Clearly, over the last year, our focus has shifted from policy 
development to policy implementation. And, in our dialogue with 
you, four issues have emerged. And I would like to touch 
briefly on each of those in turn.
    The first issue relates to the commitment in the Missile 
Defense Review to continue to closely monitor developments in 
the threat, and to assess our priorities in the light of new 
information. And although the unclassified nature of this 
hearing constrains our discussion of this particular topic, it 
is clear that we have had a lot of new information over the 
last year that confirms the basic intelligence community 
finding that the threat is continuing to develop, both 
quantitatively and qualitatively. And it has reinforced our 
principal conclusion that we need a balanced approach that 
continues to improve the defense of the homeland while, at the 
same time, accelerating regional protection.
    The second main topic of continuing discussion between us 
has been about defense of the homeland. The Ballistic Missile 
Defense Review expressed two principal commitments: The first, 
to continue to improve the GMD system in order to ensure that 
we maintain our ``currently advantageous position'' vis-a-vis 
the threats that might emerge from states like North Korea and 
Iran to conduct limited strikes on the United States. And our 
second commitment was to be well-hedged against the possibility 
that those threats might emerge in a way and with a speed, 
quantitatively and qualitatively, that requires some 
significant shift in our posture.
    All of us today have provided testimony with details about 
the commitments that we are making in support of strengthening, 
continuing to improve the GMD system. We have a lot of ongoing 
activity in this area and some additional initiatives beginning 
this year that we have proposed. And our conclusion is that the 
cumulative effect of these commitments is to ensure that we 
will maintain the advantageous position we have vis-a-vis 
first-generation threats.
    The hedge we have also made a commitment to, as you know, 
not just as something we might do in the future but something 
we are doing now. We committed to the additional silos, both 
the completion of Missile Field 2 and the mothballing rather 
than decommissioning of the residual capabilities in Missile 
Field 1. And this puts us in a position to increase by 50 
percent, if we were to choose to do so, the number of deployed 
GBIs [ground-based interceptors] in light of additional threat 
information.
    We have also committed to assess in detail this basic hedge 
posture and to bring additional information forward. I believe 
you met with Dr. Jim Miller a month ago, and he expressed our 
commitment to bring to you, as soon as we had been to the 
Secretary, additional information in this area.
    The third continuing topic of discussion between us has 
been about implementation of the Phased Adaptive Approach. And 
the Ballistic Missile Defense Review, of course, expressed this 
as a global approach, meaning an approach that would be pursued 
in each region. We elaborated in detail in the review the 
approach to Europe. And, as you know, the progress in the 
interim year has been, we think, strong, with both a ramp-up in 
the investments in the needed capabilities and working 
politically with our partners, whether multilaterally in NATO 
or bilaterally in the other regions, to strengthen our 
postures.
    The fourth issue I would like to touch briefly is the 
commitment expressed in the Ballistic Missile Defense Review to 
strengthen international cooperation. And this is a global 
intent and one that we are realizing through our collaborations 
with our allies and partners in Europe, East Asia, and the 
Middle East. But, of course, the sensitive and important 
question today is about cooperation with Russia. We believe in 
the potential benefits for our national security, for the 
national security of our NATO allies, and also for Russia of 
cooperation in this area.
    We are mindful that there are many challenges associated 
with this objective. We reject cooperation that would in any 
way limit our defenses. And you have heard the President say 
that NATO will defend NATO, Russia will defend Russia, and we 
will try and reinforce each other's defenses cooperatively.
    We will not compromise essential technologies. There is no 
discussion of providing hit-to-kill technology as a part of our 
cooperative activities with Russia. We have made clear that 
cooperation will require a successful conclusion of a Defense 
Technology Cooperation Agreement, as originally proposed and 
pursued by the Bush administration. And, of course, we are 
mindful of the fact that any classified information that might 
be discussed with Russia or any other international partner is 
subject to national disclosure policy.
    As you know, we are pursuing two primary pathways of 
cooperation with Russia, the first bilaterally and the second 
in the NATO context. Bilaterally, our principal focus is on 
joint analysis in order to better understand what capabilities 
we might bring to the table at this time. And, clearly, from 
Russia's perspective, what they bring to the table at this time 
is only sensor information. And we are looking also bilaterally 
at, then, what might be possible in the way of exchanging data 
without compromising its integrity.
    In the NATO context, we are working to explore the 
possibility of a cooperative system for the common defense of 
the European space. We have resumed our theater missile defense 
cooperation with Russia that had been pursued under the Bush 
administration. And we are also developing a joint analysis 
process there to support the NATO process.
    So that is a quick review of our four key areas, I think, 
of continuing dialogue with the committee. And I look forward 
to answering your questions.
    [The prepared statement of Dr. Roberts can be found in the 
Appendix on page 42.]
    Mr. Turner. General O'Reilly.

 STATEMENT OF LTG PATRICK J. O'REILLY, USA, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General O'Reilly. Good afternoon, Chairman Turner, Ranking 
Member Sanchez, other distinguished members of the 
subcommittee. I appreciate the opportunity to testify before 
you today on the Missile Defense Agency's $8.6 billion fiscal 
year 2012 budget request.
    We continue to enhance today's Ballistic Missile Defense 
System, which is capable of protecting our homeland from 
limited ICBM [intercontinental ballistic missile] attacks to 
countering the growing proliferation of increasingly capable 
ballistic missiles that threaten our deployed Armed Forces, 
allies, and friends.
    By the end of 2012, we plan to complete the initial 
fielding of the Ground-Based Midcourse Defense system, or GMD, 
for homeland defense; deliver the first Theater High Altitude 
Area Defense, or THAAD, units to the Army; and test the next 
generation of Aegis missile for the Navy for regional defense. 
Our objective is, by the end of this decade, to enhance our 
current initial capabilities to achieve very robust missile 
defense against all ranges of threat missiles.
    Like the rest of the Department of Defense, our fiscal year 
2012 budget request was based on the assumption of approval of 
the fiscal year 2011 President's budget request. However, the 
impact of operating under a continuing resolution at the fiscal 
year 2010 budget level is significant for the Missile Defense 
Agency since our fiscal year 2011 request was $486 million more 
than our fiscal year 2010 budget, including a $324 million 
increase for homeland defense.
    We have had significant accomplishments over the last year, 
including conducting 8 out of 8 planned flight tests, with 13 
successful target flights; the first flight of a 2-stage 
ground-based interceptor; the third successful missile 
intercept by the Japanese Aegis program; a successful low-
altitude intercept by the THAAD system. We started production 
of the THAAD Batteries 3 and 4. And we emplaced the thirtieth 
GBI; upgraded 2 additional GBIs; completed the upgrade of the 
early-warning radar in Thule, Greenland, to a missile defense 
radar; converted 2 Aegis ships, thus increasing our fleet to 20 
operationally configured ballistic missile defense ships.
    We delivered 25 SM-3 IA interceptors and demonstrated the 
ability for 2 space tracking and surveillance satellites to 
provide high-fidelity missile tracks. And, with our Airborne 
Laser Testbed, we destroyed two boosting missiles in flight. We 
have demonstrated command and control interoperability with the 
NATO Active Layered Theater Ballistic Missile Defense System on 
multiple occasions. And we supported Israel's successful 
intercept of a separating threat missile off the coast of 
California earlier this month.
    Today, MDA's top priority is to confirm the root cause of 
the recent GBI flight test failure, verify the resolution of 
the problem, and successfully repeat the previous flight test. 
While the failure review board has only produced preliminary 
results, it is clear more ground testing and additional non-
intercept flight tests of an upgraded GBI Exoatmospheric Kill 
Vehicle, or EKV, will be required before the next intercept.
    For fiscal year 2012, we are requesting funding for the 
completion of the construction of the Ground-Based Midcourse 
Defense Missile Field 2; a second fire control node at Fort 
Greely, Alaska; the construction of a missile communication 
system on the east coast of the United States; placing Missile 
Field 1 at Fort Greely in a storage mode for possible upgrade 
for operational use in the future; procuring five new ground-
based interceptors; upgrading existing ground-based 
interceptors; and upgrading the early-warning radar in Clear, 
Alaska.
    Today, 30 operational GBIs protect the United States 
against a medium ICBM raid size launched from current regional 
threats. We closely monitor intelligence assessments with the 
intelligence community. And if this capability is deemed to be 
insufficient, we are developing options to increase the 
capacity of operational GBIs and accelerate the delivery of new 
sensors and interceptor capabilities. The Department is 
committed to brief Congress soon on our hedge strategy to 
mitigate against uncertainties in threat estimates.
    Our execution of the European Phased Adaptive Approach is 
on track for meeting the timelines outlined by the President in 
September 2009.
    For Phase 1, our initial capability against short-, medium-
, and intermediate-range threats in Europe, our first Aegis 
ballistic missile ship deployment, the USS Monterey, is on 
station. The latest command and control system upgrades are 
being installed in the European Command. And the AN/TPY-2 
forward-based radar will be available in August for deployment 
by the end of this year. Finally, a major test verifying the 
readiness of the EPAA [European Phased Adaptive Approach] Phase 
1 against an intermediate-range ballistic missile will be 
conducted next month in the Pacific.
    For Phase 2, our enhanced capability against medium-range 
ballistic missiles by 2015, the first flight test of the next-
generation Aegis missile interceptor, the SM-3 IB, will occur 
this summer. And the associated upgrade to the Aegis fire 
control system is on track for certification by the Navy in 
2012.
    The design of the adaptation of the Aegis system for land 
basing, called Aegis Ashore, began last summer, with 
manufacturing beginning in fiscal year 2012. The Aegis Ashore 
site will be installed in Hawaii in 2013 and flight tested in 
2014. And installation of the second Aegis Ashore system in 
Romania is also on track to occur in 2014, for full operation 
by 2015.
    For Phase 3 of our enhanced capability against 
intermediate-range ballistic missiles by 2018, the SM-3 Block 
IIA interceptor is completing its preliminary design this year 
in support of flight testing in 2015 and deployment in 2018. 
The airborne infrared sensor for early missile tracking will 
begin flight testing of the next-generation sensor in 2012 and 
is on track for deployment of a missile defense sensor pod that 
could attach to any aircraft by 2016. Due to the fiscal year 
2011 continuing resolution, the first flight of the Precision 
Tracking Space System satellite has now been delayed to 2016, 
and six more satellites, though, would then be on schedule for 
placement on orbit by 2018.
    For Phase 4, or medium- and intermediate-range and ICBM 
early-intercept capability in Europe by 2020, we have completed 
the Government system studies and will award interceptor 
concept design contracts to three industry teams within the 
next week. Even though the SM-3 IIB requirements are less 
stringent than on other missile defense interceptors, we are 
allocating more time to develop the SM-3 IIB than the average 
time it has taken to develop other similar missile defense 
interceptors in order to ensure low development risk. While not 
necessary for the defense of the United States against limited 
attacks by early-generation ICBMs, the SM-3 IIB will greatly 
reduce the cost of homeland defense and will be effective 
against larger raid sizes of more sophisticated ICBMs from 
today's regional missile threats.
    We are pursuing advanced technologies for applications 
beyond PAA Phase 4, such as our partnership with Lawrence 
Livermore National Laboratory to develop new laser technologies 
which offer great potential for high-efficiency compact and 
lightweight high-energy lasers for a variety of missions of 
interest to the Missile Defense Agency and the Department of 
Defense.
    Finally, Missile Defense Agency also continues to engage in 
missile defense projects, studies, and analysis with over 40 
countries.
    In conclusion, our fiscal year 2012 budget funds the 
deployment of the initial missile defense capability and the 
creation of an international network of integrated ballistic 
missile defense capabilities that are flexible, survivable, 
affordable, and tolerant of uncertainties of intelligence 
estimates of both nation-state extremist ballistic missile and 
non-nation-state extremist ballistic missile threats.
    Thank you, Mr. Chairman, and I look forward to answering 
the committee's questions.
    [The prepared statement of General O'Reilly can be found in 
the Appendix on page 57.]
    Mr. Turner. Thank you, General.
    I believe our witnesses are aware that votes have been 
called. So, at this point, we will stand in recess, and we will 
return after votes.
    [Recess.]
    Mr. Turner. I call the committee back together.
    Mr. Ahern.

  STATEMENT OF DAVID G. AHERN, DEPUTY ASSISTANT SECRETARY OF 
  DEFENSE, PORTFOLIO SYSTEMS ACQUISITION, OFFICE OF THE UNDER 
 SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY AND LOGISTICS

    Mr. Ahern. Mr. Chairman, Ranking Member Sanchez, members of 
the committee, thank you for the opportunity to appear before 
you today.
    I want to begin by addressing the Department's recent 
decision regarding MEADS. Beginning in the 1990s, MEADS is a 
ground-based air and terminal ballistic defense capability that 
would replace existing Patriot systems in the U.S. and Germany 
and the Nike Hercules system in Italy.
    In 2004, the MEADS partner nations--Germany, Italy, and the 
United States--signed a memorandum of understanding for a 
cooperative design and development, or D&D, phase that 
anticipated readiness for production beginning in 110 months, 
or about 2014.
    However, the NATO MEADS Management Agency program 
restructure proposal presented to the board of directors in 
November 2010 indicated that MEADS D&D would require 30 
additional months beyond the original 110-month plan. Further, 
it would require nearly a billion dollars more of U.S. 
investment during fiscal year 2012 to 2017. And production 
would not begin earlier than 2018, with the first U.S. fielding 
around 2020.
    As we built the fiscal 2012 budget, the Department was 
fully cognizant of the MEADS updated estimates for cost and 
schedule, and we were also informed by an independent cost 
estimate of the D&D phase by the Department's Cost Assessment 
and Performance Evaluation Office.
    With those estimates in hand, the U.S. considered three 
potential courses of action: Terminate immediately; continue 
development within the funding limits set by the MOU 
[memorandum of understanding] that entered into force; and 
complete the planned D&D phase by adding additional funding and 
allowing additional time. The Department has decided the best 
course of action is to continue the D&D phase up to the 
previously agreed MOU cost ceiling.
    However, the U.S. will not pursue procurement and 
production of MEADS. The Department believes the implementation 
of a proof-of-concept program using the remaining D&D funds 
contributed by the three nations is the best option for the 
following reasons: Funding MEADS up to the existing MOU ceiling 
enables all partners to harvest technology from the large 
investment made to date. The U.S. cannot afford to purchase 
MEADS and make required upgrades to Patriot concurrently over 
the next two decades. The U.S. can achieve some of the 
capabilities that MEADS provides using existing assets. Our air 
and missile defense portfolio is based on integrating and 
fielding a diverse set of elements to provide expanded coverage 
against a wide range of threats. So, while we accept some risks 
due to the MEADS decision, the U.S. is still able to achieve 
some of the capabilities that MEADS was to provide.
    The U.S. remains concerned with the overall track record of 
the program. The proof-of-concept effort will use the remaining 
D&D MOU funding in 2011 to 2013 to complete prototypes, 
demonstrate and document the capabilities of major system 
elements, and complete limited system integration. This work 
would allow Germany and Italy to continue MEADS development and 
production efforts after the current MOU funding is expended, 
if they so desire. The same options would be available to the 
United States should U.S. air defense plans change.
    While the MEADS program of record performance might 
ordinarily make it a candidate for cancellation, terminating 
the program now, just after successful completion of the MEADS 
critical design review, would force the nations to devote 
significant funding to contractor termination costs instead of 
using this funding to bring development to a viable level of 
maturity.
    Turning now to the Missile Defense Executive Board, I 
testified before this subcommittee 2 years ago describing the 
Board's structure, operation, and activities. The MDEB [Missile 
Defense Executive Board] was established in 2007 to recommend 
and oversee implementation of strategic policies and plans, 
program priorities, and investment options to protect our 
Nation and its allies from missile attack. The USD(AT&L) [Under 
Secretary of Defense for Acquisition, Technology and Logistics] 
has maintained the MDEB structure and operation in essentially 
the same form since its inception.
    A notable MDEB achievement has been the creation of a Life 
Cycle Management Process. It has had a significant impact on 
the preparation and execution of MDA's plans and budgets. The 
LCMP [Life Cycle Management Plan] provides for the 
participation of the MDA, the Office of the Secretary of 
Defense, STRATCOM [United States Strategic Command], other 
combatant commanders, the JCS [Joint Chiefs of Staff], and the 
military departments in an annual process to identify 
capability and support requirements, balance resources and 
technical capabilities, and prepare a BMDS [Ballistic Missile 
Defense System] program and budget. For the last 2 years, the 
Department has executed the LCMP to derive comprehensive 
Department involvement and influence on the MDA's plans and 
budgets.
    A key element which provides a foundation for the LCMP is 
an input derived from the Strategic Command's Warfighter 
Involvement Process. An output of this process is a Missile 
Defense Prioritized Capability List that documents operator 
capability requests and is reviewed and endorsed by the MDEB. 
The MDA provides a formal response which, in turn, facilitates 
MDEB assessment of MDA program plans against desired 
capabilities.
    Recent MDEB activities have included reviews of fiscal year 
2012 MDA budget request, evaluation of operation and support 
funding responsibilities, force structure recommendations such 
as an addition of a TPY-2 radar to the BMDS acquisition 
planning.
    One oversight focus area is the Department's assessment of 
BMDS elements' maturity for production and lead service 
operation. The Department's current criteria for missile 
defense element production include: An assessment of the depth 
and breadth of preparation; performance validated by testing 
results; funding to support the program plans; and an 
executable plan for operation and support. MDA, in conjunction 
with the designated lead military department, makes a 
recommendation for a production decision. USD(AT&L) is 
responsible for the review and decision.
    The Department is ensuring proper management oversight of 
this complex portfolio through its effective utilization of the 
MDEB. We are taking prudent steps to transition individual 
elements to lead military departments at the appropriate time 
for operation and support. In that regard, the MDEB just agreed 
to guidelines for MDA and the military departments regarding 
funding responsibilities for BMDS element's development, 
operation, and support. Continued operation between the MDA, 
OSD [Office of the Secretary of Defense], the military 
departments, the Joint Staff, and COCOMs [combatant commands] 
are critical to long-term success of the BMDS.
    I am grateful to the members of this committee for your 
support of the Defense Department's missile defense programs 
and look forward to your questions.
    [The prepared statement of Mr. Ahern can be found in the 
Appendix on page 72.]
    Mr. Turner. Thank you.
    Mr. Gilmore.

  STATEMENT OF HON. J. MICHAEL GILMORE, DIRECTOR, OPERATIONAL 
    TEST AND EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Dr. Gilmore. Mr. Chairman, Ranking Member Sanchez, members 
of the committee, I will very briefly summarize my written 
statement.
    In my view, General O'Reilly has brought outstanding rigor 
to missile defense testing through his implementation of the 
Integrated Master Test Plan, or IMTP. My office and I, myself, 
are substantively involved throughout the 6-month development 
and review process that the general is using to develop and 
update the IMTP.
    The IMTP remains focused on conducting the live testing 
needed to demonstrate Ballistic Missile Defense System 
performance under selected critical engagement conditions and 
to collect the other empirical data required to rigorously 
accredit the models and simulations that will be used to assess 
the system's performance against the broad range of scenarios 
that could be encountered in real-world operations. And so 
another benefit here that the general has brought to his 
approach to missile defense testing is to tie the testing very 
rigorously and tightly to the development of the models and 
simulations and to their rigorous accreditation.
    The IMTP now includes operational testing of the Ballistic 
Missile Defense System, and the first such test is now 
scheduled for the fourth quarter of fiscal year 2012. And it 
will demonstrate, among other capabilities, layered defenses, 
shot coordination, and the negation of a small raid. Those are 
all important capabilities to demonstrate.
    General O'Reilly has summarized the testing that has 
occurred over the past year and that is planned in the near 
term. And, as he mentioned, there were two unsuccessful 
intercepts conducted using the ground-based interceptors of the 
Ground-Based Midcourse Defense system equipped with Capability 
Enhancement II kill vehicles. Each of those tests failed--each 
of those intercepts failed for different reasons. And the 
reason for the failure of the second intercept remains under 
investigation.
    I think it is inevitable that the rigorous test regime 
General O'Reilly is executing will inevitably result in such 
failures. And those failures, although they may be perceived 
negatively, also provide information that is absolutely 
critical to assuring that the missile defense system will 
actually work if it is ever needed. And the failures also 
demonstrate why live-fire testing of the system, with all of 
the complexity and expense that it entails, is absolutely 
necessary.
    The testing conducted during the past year has provided 
valuable information, although, because of the unsuccessful 
intercepts, not quite as much as we had hoped for. For example, 
there were supposed to be intercepts conducted against target 
complexes, including associated objects in the intercepts that 
failed.
    And, although we have gotten additional very useful 
information, in my annual report I have not changed my 
assessment this year relative to last year in terms of 
demonstrated capability of the Ballistic Missile Defense 
System. I use a six-point scale to do that, ranging from one, 
where capabilities are estimated using engineering analysis and 
laboratory testing, to six, where capabilities are verified 
across the full range of scenarios and conditions possible in 
real-world operations using a combination of rigorous flight 
testing and rigorously accredited ground testing models and 
simulations.
    So, a one to six scale. On that scale, Patriot has 
demonstrated level six against short-range ballistic missiles. 
That is not to say that Patriot meets all of its requirements, 
but it has been rigorously tested across a broad range of 
conditions and scenarios.
    Aegis, with the so-called build 3.6.1, I assess at level 
five against short-range ballistic missiles and the lower end 
of the range capable of medium-range ballistic missiles. I 
assess Aegis 3.6.1 at level four against the upper end of the 
range possible for medium-range ballistic missiles and the 
lower end of intermediate-range ballistic missiles because it 
has yet to actually be tested against such threats.
    Although, as General O'Reilly pointed out, next month we 
will conduct a test against an IRBM [intermediate-range 
ballistic missile] at 3,700-kilometers range. That will 
incorporate a queue from a forward-based AN/TPY-2 radar and, 
possibly, launch on remote of the Aegis interceptor. And those 
are all important capabilities to demonstrate to support 
implementation of the Phased Adaptive Approach, Phase 1, to 
defense of Europe.
    I assess that at level four against short-range ballistic 
missiles, and that is because it has been tested only against 
simple short-range ballistic missiles. And the limitations on 
testing in THAAD up to this point are, in part, due to the 
target failures that occurred last year. Otherwise, we would 
have tested against--if the target that failed to ignite upon 
launch from the C-17, if that had not failed, we would have 
been able to do a test against a more complex SRBM [short-range 
ballistic missile]. But, so far, we have only tested against 
simple short-range ballistic missiles and have not tested other 
advanced capabilities of THAAD. And it is at level three 
against medium-range ballistic missiles because it hasn't yet 
been tested against those.
    And then, finally, I assess the Ground-Based Midcourse 
Defense system at level three because it has been tested only 
against IRBMs. The first ICBM test is now scheduled for the 
fourth quarter of fiscal 2017 in simple threat presentations 
with no silos, no simultaneous engagements, and many of the 
models are not accredited.
    Thank you. That concludes my remarks.
    [The prepared statement of Dr. Gilmore can be found in the 
Appendix on page 85.]
    Mr. Turner. Thank you.
    Well, we have very good attendance at this meeting today, 
and I know Members have a great deal of questions. So I am 
going to start by trying to combine several questions that I 
have. And then, General O'Reilly, I am going to start with a 
series of them that relate to GMD.
    There was acknowledgement, in both my comments and yours, 
of the two GMD flight tests that failed to achieve intercept. 
And it is our only missile-defense system that protects the 
U.S. homeland from long-range ballistic missile attacks. And, 
as you acknowledge and, certainly, we all believe, we have to 
get this right.
    Also, in looking at the issue of acquisition, MDA plans to 
require a total of 52 GBIs to support the system's availability 
and reliability until 2032. Of these 52 GBIs, 30 are 
operational in Alaska and California, and 16 are designated for 
flight tests from fiscal year 2010 through fiscal year 2020. 
This leaves only six GBIs available for spares and testing from 
2020 to 2032. Already, two of these six spares may be consumed 
to compensate for the failed flight test in 2010.
    Then, also, the GMD program has, as I said in my opening 
comments, seen sizeable budget cuts in the past 3 years. In 
fiscal year 2010, it was reduced by $525 million. The fiscal 
year 2011 request restored $300 million of this, but under the 
current continuing resolution, MDA is spending $291 million 
less than it anticipated in fiscal year 2011. The fiscal year 
2012 budget request further reduces the GMD program by $185 
million.
    Also, a few changes to the GMD program are reflected in 
this year's budget request. They include a decision to mothball 
Missile Field 1 in Alaska instead of decommissioning it, and 
beginning a preliminary design work to locate an interceptor 
communications terminal at an east coast site by 2015.
    So, combining those, would you please speak to the issue of 
the failures and its impact on our GMD program; your 
acquisition pace and issues that we might need to address there 
for adequacy; the reductions in funding and their effect 
overall on the program at the same time that it is having these 
challenges from the failures; and if you would also address the 
issues of the changes resulting in the status for Missile Field 
1.
    Thank you, General.
    General O'Reilly. Thank you, sir.
    First of all, for the failure of the GMD system, we have 
two versions of the GMD missile. The first version is called 
Capability Enhancement I, and it is the kill vehicle that has 
performed five times on flight. It has done very well: Three 
intercept attempts, and it has intercepted three times. Those 
are flights out of--the target out of Kodiak, Alaska, and the 
intercept out of Vandenberg. That roughly equates to the 
geometry of a launch out of North Korea and an intercept coming 
out of Fort Greely, Alaska.
    For those type of scenarios and for that system, the CE-I 
[Capability Enhancement I], we remain to have confidence in the 
system based on the data we have seen.
    However, we started a second version of the missile kill 
vehicle in 2005 based on obsolescence reasons--parts, 
manufacturers, and so forth not producing parts anymore in the 
electronic systems that we needed. And, therefore, we 
redesigned the system, upgraded it, and actually gave it 
greater sensitivity and greater capability. However, it failed 
on the first flight test due to a quality control problem we 
identified in the plant. We corrected that quality control 
problem, and, in the second flight, it didn't happen.
    However, we did have a failure at the very end of the 
second flight. And we have a failure review board that has been 
formed. It is working diligently. It combines industry, 
academia, the best of Government, FFRDCs [federally funded 
research and development centers], national labs. They are 
completing their analysis. Right now, it looks like we have a 
very good idea of what the failure mode was. But that is not 
enough. I need to have it verified and demonstrated, which they 
will do through testing across the summer.
    But that is not enough. We really need to have the industry 
team, the GMD team, demonstrate to us they have corrected it. 
So I have requested in this budget support for a flight test 
which tests the missile very rigorously without an intercept, 
but the purpose of it is to verify the resolution of these 
issues. And then, as I said, we will have another flight test 
next year.
    What that effectively does is, it has delayed our flight 
test program that Dr. Gilmore referred to for accrediting our 
models and simulations by approximately a year. And we will 
continue to update the committee as we go through this testing 
and verify that we have, in fact, corrected the issue.
    That is for Capability Enhancement II. Most of the missiles 
which are deployed today are the earlier version which, again, 
we haven't had those issues with.
    As far as the number of 52 GBIs, which was our original 
calculation, there are several assumptions we used which we now 
deem no longer valid. First of all, we did not take into 
account the last two flight tests have been failures. I just 
mentioned another flight test that originally wasn't 
envisioned. And we are going to repeat the last flight test. So 
right there are--indicates four GBIs that we hadn't accounted 
to before.
    I propose that the best way to make this decision is, as we 
do these tests over the next year, we determine what in fact is 
the failure, make the corrections, as I said, and then go back 
into production and make a decision based on that reliability 
information--again, what is the acquisition objective for the 
GBIs and whether it should be adjusted and what is that 
adjustment.
    I would propose that that would be appropriate for the 
fiscal year 2013 budget so that the timelines of the decisions 
I just said would be in effect. However, we have proposed five 
new GBIs for this year. So the production lines will be up, 
they will be operating. And it is clear to me that there will 
be some increased number of GBIs that will be necessary.
    As far as the budget cuts, most of the GMD system, over the 
last several years, has been investing in infrastructure. And 
we will complete Missile Field 2, the power plant power 
distribution, other upgrades, over fiscal year 2012. And that 
is one reason why you see a reduction in the budget after that, 
because, from then on, the investments is not into the 
infrastructure of the system; it is into testing and upgrades 
to the GMD system or procuring, which will be in our follow-on 
budget, additional GBIs.
    However, I would point out that, inside that GMD budget, 
the operations and support funding, it is an R&D [research and 
development]-funded program, but the money to go to those type 
of activities has increased, which is indicative of a program 
which is fielded and operating.
    The impact as a CRA [continuing resolution authority], as I 
said, is significant to GMD because that particular program was 
to receive $324 million more this year. It is exacerbated by 
the timing of the CRA that we are under right now. Normally, at 
this time of year, that is when we have the most significant 
hiring of the construction crews in Alaska. If we don't hire 
them over the next several weeks, they have opportunities 
further north in the oil fields. And we have become very adept 
at managing workloads, our contractor team has, in Alaska. And 
if we don't fund the hiring of these folks over the next 
several weeks, it will have a major impact in the summer 
construction season, which is where we do 90 percent of our 
annual construction.
    So if this continuing resolution goes beyond the current 
date of 8 April, we then will face some significant setbacks to 
the construction schedule to complete that infrastructure. And 
I would propose to come back and repropose that funding for the 
following year so that we can, in fact, complete the 
infrastructure that I was referring to.
    Mr. Turner. General, the SM-3 Block IIB, an interceptor, is 
planned for deployment by 2020 to improve protection of the 
U.S. homeland against potential ICBM attack as part of Phase 3 
of the Phased Adaptive Approach. The fiscal year 2012 budget 
request provides an additional $1.7 billion to the SM-3 Block 
IIB development program across the Future Years Defense 
Program, the FYDP.
    Will the SM-3 Block IIB design be optimized for ICBM 
intercept capabilities?
    General O'Reilly. It will be optimized to intercept 
missiles early in flight. And, if I may, to better answer that 
question more precisely, in early parts of flight, there is not 
a significant amount of distinguishment between an 
intermediate-range ballistic missile, or an ICBM. So the 
original design of this and the original concept was against 
intermediate-range ballistic missiles, 5,500 kilometers or 
less. And when we look to have effective capability for that 
range of missile, it became apparent that it would work. The 
capability doesn't fall off when you increase the interceptor 
velocity.
    So, sir, its design space is to maximize its performance 
from a medium-range ballistic missile to an ICBM, not to an 
ICBM that is greater than on the order of 12,000 or more 
kilometers. It would not be effective against the very largest 
ICBMs, but it would be effective against ICBMs that are 
traveling at velocities that we are concerned about and 
distances we are concerned about for countries in the Middle 
East and Northeast Asia.
    Mr. Turner. Okay. Obviously, I would like to have an 
additional conversation with you about that, because the intent 
of 2020 and Phase 3 and then even 4 of the Phased Adaptive 
Approach is protecting the homeland. So I would just like to 
have an additional discussion about that subsequent to the 
hearing.
    Mr. Turner. Dr. Roberts, the Administration's decision in 
2009 to adopt a Phased Adaptive Approach for missile defense in 
Europe was based in part on an assessment that the longer-range 
threat from Iran was slower to develop than previously 
estimated.
    We just had Secretary Gates in today to talk about Libya; 
and in discussing Libya with him, we asked--I asked the 
question of, and what do they--in their discussions on engaging 
Libya, what were their concerns as to what the effect might be 
on Iran and our efforts for nuclear nonproliferation? Is there 
a prospect that it could make them go faster in their quest? 
And he said, ``I don't think they could be going any faster.'' 
Which would lead me--that is certainly a statement of intent, 
which certainly gives everyone the concern that the threat from 
Iran could develop much faster than what the Phased Adaptive 
Approach is designed to respond to.
    What is your current thought of how the threat is emerging 
and prospective gaps between the Phased Adaptive Approach and--
recognizing, of course, our ground-based system, but just 
focusing on the issue of the Phased Adaptive Approach, trying 
to respond to a threat from Iran, what are your thoughts on the 
emergence of that threat and the potential gap?
    Dr. Roberts. To be clear about your question, Phased 
Adaptive is, of course, focused on the defense of the regions. 
With, in the case of Europe, the addition of the Phase 4 
capability that would offer some protection against 
intercontinental threats, but also improve protection in the 
early intercept mode against IRBMs. And the question we face in 
anticipating Iranian threats is how they might mature in a way 
that threatens both Europe more rapidly than PAA, and the 
American homeland in a way that would overwhelm our current 
posture. It is an interrelated question.
    Without venturing into classified information, I think our 
fundamental view is that the regional threat from Iranian 
ballistic missiles is rapidly growing quantitatively and 
quantitatively, and that the threat from the intercontinental 
capability remains difficult to predict, precisely when and how 
it might emerge.
    And I think that is about all there is to say about the 
threat at the unclassified level from Iran.
    How does that measure up against the posture that we are 
trying to put in place? In the case of the regional protection 
posture, we are putting into the field as rapidly as we can the 
capabilities that MDA has been developing. And there we are in 
a race between their quantitative and qualitative improvements 
and our quantitative and qualitative improvements, and our 
phased approach is intended to take the advantage, as early as 
possible, for our own proven capabilities for the defense of 
Europe.
    In terms of the protection of the American homeland, what 
we are trying to hedge against is something quite specific and 
not general. Let me begin with a quick summary of our baseline 
of homeland defense capability, because it is not just the 
interceptors in being today. It is the improvements that we 
expect over the coming two decades with the additional 
enhancements to the capabilities of the Ground-Based Midcourse 
Defense system and the addition in the out-years in the second 
decade of the SM-3 IIB. It is a complementary set of tools that 
will apply to the defense of the homeland over this time.
    In addition, we have in place the hedge, such as it now 
exists, to increase from 30 to 44 the number of deployed GBIs 
in the case of a more rapid emergence of an Iranian threat 
between where we are today and 2020 when, presumably, we will 
have the SM-3 IIB to help supplement the defense of the 
homeland.
    The need is not to be hedged against an initial ICBM 
capability from Iran or some other country. We are already 
well-hedged against that position. We have 30 deployed 
interceptors. Against--we have used the shorthand to 
distinguish first-generation threats from second-generation 
threats. First-generation threats being initial capabilities 
from proliferators in the intercontinental range with 
unsophisticated countermeasures. Second-generation threats 
would be in quantity sufficient to overwhelm the GMD system or 
advanced countermeasures or both. And our basic hedge concern 
is to be well prepared for the possibility that there might be 
a more rapid emergence of that second-generation threat than we 
are ready to meet because SM-3 IIBs are not yet in place.
    Now, that involves some discussions of how confident you 
are in the intelligence that tells you that something is 
coming--low, moderate, or high--and how much risk you are 
willing to accept in the period--how much risk you are willing 
to except about the possibility of an emergent second-
generation threat.
    I'm sorry to dance around a subject that has a lot of 
classified information in it, but I hope is that addresses the 
thrust of your question.
    Mr. Turner. You did a very good job of shepherding through 
that, and I will take, since we are talking about missile 
defense, your asking about the thrust of the question as a very 
bad pun.
    We will go to Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. Thank you, again 
gentlemen.
    Let's see, Mr. Ahern, you said--you were talking about 
MEADS, and you said something to the extent of stopping the 
program, the costs versus completing it versus paying out the 
closing costs on the contracts that you have. Can you get back 
to us--we don't have to have it here unless you have it off the 
top of your head--what that calculation is just for the record, 
since you brought it up?
    Mr. Ahern. Yes, ma'am. The phrase I used is that we would 
be, if we went into that scenario--my notes are here--but 
essentially that there has been an extensive amount of money--
that is about what I said--on termination costs if we went in 
that direction.
    The calculation that we have right now is that the 
remaining funding in the MOU, and that liability that we are 
into, and I want to be sure to explain that carefully. There 
was an original commitment written into the MOU of about $4 
billion U.S. equivalent dollars shared between the three 
allies. Our share was $58 million, about $2.5 billion over that 
period, 110 months, that I mentioned earlier.
    The way that it is written, if you withdraw from the MOU, 
then you are liable potentially to termination liability up to 
the level of your commitment under the MOU.
    Currently, we have put in--and the numbers are about 
right--about $1.5 billion. So our remaining commitment to the 
MOU, therefore, our maximum termination liability, is about 
$800 million. $846 million, at some point, was the number that 
we had used.
    Now, the other side of the coin is what do we--we have 
asked for $800 million in fiscal year 2012 and 2013 to continue 
to fund the MOU. So the point I was trying to make is that in 
balancing--to make a decision going forward, that the four 
reasons that I said going forward, one of the ways that was 
thought about is, if it is about the same amount of money--and 
this is my Dave Ahern paraphrasing--if it is about the $800 
million to go forward and be able to get into the 
demonstration, show the prototyping, the capability of this 
system, that is a better use of that funding than it would be 
to unilaterally terminate, where you don't come away with 
anything at all.
    Does that answer your question? That is what I was trying 
to do.
    Ms. Sanchez. Yes, absolutely. I was trying to figure out 
what the magnitude of that was. Okay.
    And, Dr. Gilmore, you said at one point, you had a phrase 
where you spoke about General O'Reilly's system testing or the 
way he set up his tests; and you said something to the effect 
of ``it would almost lead to failures because it was such 
strict testing'' or----
    Dr. Gilmore. I said that rigorous testing will probably 
inevitably lead to some failures. They wouldn't be unexpected.
    The same thing is true of missile defense systems that is 
true of all defense systems, which is these are some of the 
most complex systems that human beings try to build and get to 
work. And so when you test these systems--and this is true not 
just in missile defense interceptors and kill vehicles. It is 
true of Joint Strike Fighters. It is true of advanced anti-
radiation guided missiles. It is true of virtually every 
program that I have to write a test report about. When you test 
them realistically under operational conditions where they are 
first stressed to the max or much more than they have been in 
developmental testing, inevitably you find problems and there 
are failures.
    Ms. Sanchez. So the more rigorous or calibrated you are 
trying to get to, there are more.
    Dr. Gilmore. Actually, the rigorous testing can be less 
calibrated. It can be under conditions which are unexpected 
and, therefore, more stressful. But, in any event, if you test 
rigorously under operational conditions you will probably 
encounter failures, and that is true of missile defense 
interceptors as it is true of other defense systems.
    Ms. Sanchez. Thank you for that.
    Because I am coming back to a question for you, General 
O'Reilly. We had an earlier conversation when I spoke to you 
about having spoken to somebody else, and one of the comments 
that group made was that we might be a little bit less of a 
risk-taker in this arena.
    Can you speak a little to where you are calibrating how 
much risk we should be taking? Because in some of the other 
systems that I was talking to you about with this group, they 
were having some quantum leaps, if you will, forward in theirs, 
and ours is more doggedly coming along. What is your sense of 
just how calibrated or how stringent you--or rigorous you are 
making the tests?
    General O'Reilly. Ma'am, the way we are setting up our 
tests I do believe are representative. And I do work with Dr. 
Gilmore and the services operational test community, but I do 
believe they are representative of an actual scenario that the 
Ground-Based Midcourse Defense system, for example, could see. 
So my philosophy to testing for the agency is we need to assure 
it is going to work in combat; and, therefore, if there is a 
problem, I would rather find out now and fix it than, 
obviously, find out later. And I also have to report to the 
combatant commanders why they should have confidence that in 
battle these systems will work.
    So we do stress it. We do ensure that we understand the 
minimum performance. For example, these flight tests I have 
done recently are very long in flight. And the reason we are 
doing that is to replicate the longest flight we could possibly 
have for defending the United States, for example, from Fort 
Greely, Alaska. And, again, our philosophy is we want to assure 
they work; and we also want to find out, if they don't work, 
let's find out now. We have an opportunity to fix them. Which 
is what we are doing in the Ground-Based Midcourse Defense 
program.
    Ms. Sanchez. Thank you for that.
    Another really subjective sort of question I have with you 
is how do you balance the need for ensuring an operationally 
effective missile defense with the pressure to deploy the 
missile defense systems quickly? And how does schedule and 
employment pressures, you know, that are obviously aimed at 
that--again, going back to this question of, you know, maybe we 
are lagging behind because we are being so risk-averse or more 
particular. And would the pressures that you see sometimes of 
people pushing, would they lead you to do shortcuts? How do you 
balance that? Because you are really our guy trying to figure 
this out with respect to testing everything and working 
everything and getting the schedule on.
    General O'Reilly. Ma'am, I believe the key to handling 
those situations where you are under a lot of pressure to 
deploy something and there is a great need--and we recognize, 
for example, against regional missile defense, we are outgunned 
in about every region of the world today. I think the need to 
balance that pressure versus verifying and making sure the 
system works correctly is--the approach should be to determine 
up front what is that criteria before you get in those high-
pressure situations.
    And, again, I greatly appreciate the help of the 
operational test community. We define in our Integrated Master 
Test Plan up front what is our purpose of testing, what is the 
success and failure criteria, and we do that early in the 
process, even in some cases years before we actually conduct 
the test. Therefore, once the test is done and we are looking 
at the results, that is not really the time to determine what 
is deemed a successful test or not.
    Then, if we have a system that is not mature to the point 
that we had originally set up criteria for, at that point we go 
to the combatant commander and the operational test community 
and STRATCOM, prepare a document of what capabilities have we 
verified the system does have and what are the limitations that 
it has. And then the combatant commander has to make a 
determination. Does he want to accept those limitations or not 
accept the capability until we mature it further?
    Ms. Sanchez. Okay. Thank you.
    Dr. Roberts, can you talk to us a little bit about how 
consultations are proceeding with Russia? Or would you rather 
do that off record?
    Dr. Roberts. Well, the details should be done in a 
different venue, because the state of discussions is sensitive.
    In general, we see strong Russian leadership interest in 
moving forward with missile defense cooperation with the United 
States and NATO, reflected in presidential and prime 
ministerial statements. We see supporting activities in the 
various ministries aligned with the senior-level commitment. We 
see some concerns on their side akin to the concerns we have. 
We are concerned about sharing classified information; they are 
concerned about sharing classified information. They are 
concerned about some of their technology.
    But I think the short answer would be we perceive that they 
are approaching this cooperative effort in a constructive and 
pragmatic way and with some realistic expectations about what 
we might be able to accomplish.
    Ms. Sanchez. Thank you.
    I will yield back.
    Mr. Turner. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Gentlemen, thank you for being here. We appreciate what you 
do. I have got two little 2-year-old twins, so I especially 
appreciate what you do.
    General O'Reilly, I hope the question has not already been 
asked. We get divided in our attentions here.
    But the Ground-based Midcourse Defense system in Alaska and 
California is essentially all we have to defend the homeland 
from long-range missile attacks. And it has been my estimate, 
and I am going to ask you about it, the stockpile of these GBIs 
is dangerously low. And so I guess I would ask you just to 
refresh our memories on what the present stockpile is. And in 
your personal opinion--I will put you in a bad spot here, if 
you don't mind. In your personal opinion, not wearing your MDA 
hat, is the number of available GBIs sufficient, or do we need 
more? And coupled with that question, how will the $2.4 billion 
reduction in the Future Years Defense Program affect our GMD 
effectiveness?
    General O'Reilly. Sir, we built the current acquisition 
objective, we call it, the quantity of how many of an 
acquisition item we believe we need to procure, including 
testing and development. And for GBIs today the number is 52. 
Thirty will be deployed. The others will be put into a pool 
which--again, the way our approach is to reliability of the GBI 
system is we continually learn about this system over time so 
we want to have a pool of interceptors that we can rotate 
through, which is not unusual to do with missiles. We do it 
with PATRIOT and plan to do it with THAAD and we do it with 
Aegis. You put them back into a depot, you test them, you take 
components out, you fire them off, and you keep improving your 
knowledge of how they are aging over time. So there is a 
calculation of how many missiles are necessary for that.
    We do not have a lot of data that you would normally have 
before you field a system just due to the urgency, as you say, 
the need, because the GMD system is our only homeland defense 
system. So we put prototypes--they are more akin to prototypes 
than production representative missiles in the field. We watch 
them very carefully, and we have assessed that we needed 16 for 
flight testing and ground testing. And, as has been said 
before, that leaves you six for testing in 2020.
    Well, there are some assumptions that we made at the time 
that have since no longer been valid. And that is we didn't 
anticipate the two flight test failures we have had. We also 
didn't anticipate my request for another flight to verify it 
works and then we are going to repeat the test. So right there 
are four GBIs we hadn't anticipated.
    I believe over the next year it would be prudent to 
reassess the number of GBIs we ought to be buying. For our 
fiscal year 2012 budget, we are requesting five new GBIs. So 
the production lines will start, and that will commit the 
contractors probably to their limit--close to their limit to 
what they can do. That would be more GBIs than we have produced 
at one time in the past in one lot.
    And so we believe we are going to sufficiently start the 
production line and, over the next year, I would recommend 
between now and the fiscal year 2013 budget submit, the 
Department reassess the total number we need to procure and 
then include that in the fiscal year 2013 President's budget.
    Mr. Franks. Thank you, sir.
    I will try to throw another question at you right quick. 
Related to directed energy, I know that the Airborne Laser test 
scheduled for last night had to be canceled, but, given what we 
have learned from the Airborne Laser program, do you foresee 
any near- or medium-term applications for directed energy 
weapons in the ballistic missile defense architecture at this 
point or anything new?
    And, secondly, can you tell us a little bit about the DDR&E 
[Director, Defense Research and Engineering] report on the 
directed energy technologies?
    General O'Reilly. We have supported the effort of that 
study, DDR&E study, so I can talk from a point of view of us 
providing information to them. But the bottom line is that 
there are many applications of directed energy. Unfortunately, 
for this venue right here, they are highly effective. Most of 
them are classified.
    I can tell you that last year twice, both against liquid-
fueled systems that are very hard to shoot down--the lethality 
mechanisms was the theory they would be hard to shoot down--and 
solid-rocket motors, we have shot both of them down with our 
laser system at great ranges; and the destruction actually 
occurred much faster than we theoretically thought it would 
occur.
    So there are some lethality effects that are greater than 
our theory had indicated. The bottom line is, it is extremely 
promising. We have effectively tracked and intercepted while a 
missile is boosting, which is ultimately where you would want 
to be in missile defense. Then you would never know how far the 
missile--whether it was an IRBM or ICBM--because you killed it 
while it was still boosting. Tremendous cost-effectiveness of 
having that ability. And we have demonstrated for the first 
time empirically over the last year our capabilities which 
allow us to upgrade our theory and our models and simulations.
    Mr. Franks. Thank you. Mr. Chairman, thank you.
    Mr. Turner. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. General O'Reilly, a 
couple of questions with regards to SM-3 Block IIA. It is a co-
development program between the U.S. and Japan. And in a letter 
to the Japanese Ministry of Defense you noted the project is 
rapidly approaching key milestones, that, absent a production 
agreement with the Government of Japan, the U.S. will assume it 
will produce the missiles in the United States. And I am 
curious as to what decisions you believe--MDA believes you need 
from the Japanese Ministry of Defense to move this from 
development to production with the Japanese; and if that does 
not happen, then what does happen to SM-3 Block IIA?
    General O'Reilly. Sir, the SM-3 Block IIA, we have a 
commitment to utilize that weapons system. It is Phase Three of 
the Phased Adaptive Approach for the deployment of missile 
defense in Europe. As the President has stated, the SM-3 IIA 
will be part of that configuration. Therefore, it is my 
responsibility to ensure it is brought to production and 
produced.
    Our current agreements with the Japanese Government are 
more based on timelines; and so by 2015, the current agreement 
is, that is when we would end our cooperative development of 
the SM-3 IIA.
    It is not that they have decided not to finish the 
development with us, nor have they decided to participate in 
production of it. They haven't announced that they have made 
those decisions. My point in the letter was that in our budget 
process it would be very helpful if we understood their 
commitment, and we extended the cooperative development and 
also made the agreements early on how we would produce it and 
how we would conduct work share and so forth.
    Short of that information, I must assume that I have to put 
something in there to ensure--to submit to Congress the 
resources needed to deliver the SM-3 IIA by 2018. And so what I 
have done in the out-year budget, without having a commitment 
from the Japanese Government, has assumed that the United 
States will finish the development and production.
    It was done only to have a comprehensive budget submission. 
It was not meant that we do not desire it. In fact, we would; 
and we have had great success with the Japanese. It is just 
that it would be very helpful for our budgetary purposes to 
understand what their intentions are for completing the 
development and to going into production. I, frankly, would 
imagine that after they----
    Mr. Larsen. Do you anticipate, then, meeting a time? 
Obviously, everything is down in Japan, and we are sensitive to 
that. But on this issue do you anticipate sometime this year 
meeting with them to try to find out what their intentions are?
    General O'Reilly. Sir, we have several meetings planned 
this year to discuss this, and the sooner the better for us. 
But, obviously, we are very sensitive to the situation they are 
in. But they have not delayed our upcoming meeting that will 
occur in the next two months on this topic.
    So that is where we stand on it, sir. And I may defer to 
OSD Policy, too, because they work this from the policy side.
    Mr. Larsen. Go ahead, Mr. Roberts. That is fine.
    Dr. Roberts. Well, I would only add that we have every 
reason to expect continued strong partnership from Japan on 
this matter. Their commitment is clear, even if the terms of 
the next agreement are not yet finalized; and we think they are 
an excellent model of burden sharing with our allies in this 
area.
    Mr. Larsen. Mr. Gilmore, in your testimony--in your written 
testimony, you noted on the--back to the GMD and interceptors--
you said because the number of GMD interceptors available for 
testing is limited and additional targets must be purchased to 
support this repeat testing, the FTG-11 has been eliminated. 
The point is that additional targets must be purchased, and we 
have heard this from General O'Reilly as well.
    Putting that together--this is actually a question for Mr. 
Ahern, from MDEB's perspective, is this on your--is this yet on 
your radar? Or it has to be worked for the 2013 and then comes 
to you?
    Secretary Ahern. That is correct, sir. I have not seen that 
come forward, the additional. But I understood what General 
O'Reilly indicated, and I expect that we will see it coming 
forward in 2013.
    Mr. Larsen. Thank you.
    Thank you, Mr. Chairman. I will take a second round later.
    Mr. Turner. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    General O'Reilly, I want to the build on a question or two 
that Representative Franks asked a moment ago. Is the funding 
for directed energy what it should be, given what we continue 
to learn about the greater and greater applications for 
directed energy?
    General O'Reilly. Sir, I am a strong supporter of 
development of directed energy. I believe we have shown over 
the last year that it does have lethal effects, as we have 
desired. The Missile Defense Agency probably has the greatest 
application of high-energy megawatt-plus class lasers, so we 
are unique in that area. But at much lower energies, we have 
significant applications in missile defense to assist our 
interceptors if we have directed energy.
    But for these--it is still in research and development in a 
large part, especially the next generation. We would like to 
see powerful lasers like we are working with Lawrence Livermore 
National Labs that is about the size of this table, rather than 
a 747, that would have tremendous lethality. And to achieve, 
that I believe the best way is almost like the approach I 
answered for test criteria. We establish technical milestones, 
and we establish a steady funding level. And until they hit 
that technical milestone, we keep a steady funding level that 
adds stability to the research team and, once they achieve it, 
then a decision is made to move to a higher funding level where 
you can then start applying that technology.
    Where they are in this program--and we are prepared to move 
rapidly once they have achieved milestones. These are 
significant milestones associated that they are working right 
now with the efficiency of these lasers. Once they reach the 
type of efficiencies they are trying to achieve, which is 
greater we have ever seen before--and I do believe they are 
achievable; it just has to be demonstrated--then I believe that 
is the best strategy for justifying additional funding to apply 
that capability.
    Mr. Lamborn. Are we at least doing that initial stable R&D 
type of funding in the proposed budget?
    General O'Reilly. Yes, in the proposed budget, we are.
    Mr. Lamborn. Okay. Secondly, I have heard that the Standard 
Missile-3 Block IIB program described as a high schedule risk. 
Do you see this as an important problem?
    General O'Reilly. Sir, when we laid out the SM-3 IIB 
program, we looked at interceptors that are much more complex 
than this one.
    If I may say, trying to intercept a missile in boost phase 
has some big advantages and actually is a more simplistic 
missile. The target you are trying to hit is very hot. You just 
finished boosting, and the accelerations of it--it is very 
clear to find it, to track it. And we have other classified 
requirements that are not applicable at the front end of a 
missile kill chain.
    So the bottom line is, we don't believe the criteria are as 
great on this missile as it is on the, say, PAC-3 [Patriot 
Advanced Capability-3] or THAAD or Aegis. Yet we added time to 
the average development time, and we went back and looked at 
how long it takes to build missiles of this class. And so for 
this missile, from the beginning of product development to 
making a milestone decision for production, is 5\1/2\ years, 
which is longer than what the average is for a typical missile. 
So we do believe we have put margin, schedule margin, into the 
development of this missile.
    Mr. Lamborn. Okay, thank you very much.
    And my last question for you is I was recently informed 
that the defense efficiency initiatives will be cutting 1,000 
positions from the Missile Defense Agency over the next 2 
years. What parts of the agency are these cuts coming from? And 
can your agency absorb such a huge cut without an impact to the 
missile defense mission?
    General O'Reilly. We were part of that process to determine 
what the efficiency goals were. Our input was along that line, 
and the majority of that is in the area of our contractor 
support for Government functions, the supporting functions. And 
it is a different way of contracting is what we have taken into 
mind. Instead of taking a path like we have in the past where 
we augment our staff, everybody inside the agency determines 
how many more technical support contractors they need, and we 
go out and procure for that number. We have turned it around, 
and we have made it competitive, and we will announce what are 
the tasks that need to be accomplished. And then we let the 
contractors come back to us and propose--industry to tell us 
how many people it would take, rather than we predetermining 
how many people.
    We are about 50 percent through this new contracting 
process over the last year. The savings we have already 
identified for this year alone, over $100 million, where the 
actual proposals that we accepted was less than what the 
Government estimate was under the previous contracting 
approach.
    So we believe the competition that has been added to this--
we also are awarding larger contracts in this area. So instead 
of having a whole series of small contracts--we had over 400 
for this agency--we are now pursuing 40 larger contracts which 
then have their own efficiencies because the Government does 
not have oversight over 400 contracts so there is the reduction 
on the Government side.
    But most of that goal for the reduction of effectively a 
thousand full-time equivalent personnel is achieved through 
this new contracting approach of letting industry tell us and 
bid competitively on how much it would take in order to meet 
the tasks that we have.
    Mr. Lamborn. General, as a final follow-up, you have 
explained the process very well, but do you think any of the 
missions of MDA will be compromised?
    General O'Reilly. No, we have determined up front what are 
the tasks that need to be done in order to accomplish our 
mission, and we are set out to contract to all of those tasks.
    Mr. Lamborn. Okay. Thank you, and thank you all for being 
here.
    Mr. Turner. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    General O'Reilly, you addressed--and I am discovering what 
it is like to be a freshman, seems like all of my questions 
have been asked in one shape, form, or fashion, so I am 
modifying a little bit.
    But you addressed the impact of a continuing resolution. As 
you know, we in the House and the Senate are facing a logjam of 
sorts with respect to CR [continuing resolution] versus a 
budget for the remainder of this year. Which is the lesser of 
the evils to you: Continuing throughout the remainder of the 
year on a CR basis, sporadic 3 or 4 weeks at a time or, if push 
comes to shove, having a partial Government shutdown of 2 or 3 
weeks, something of that nature, which may be required to force 
the parties to pass a budget for the remainder of this year? 
Which is easier for you?
    General O'Reilly. I am sure everybody is anticipating my 
answer of what Congress should do.
    Mr. Brooks. Not what Congress should do, but which is 
easier for you to operate under? Which is the lesser of the 
evils?
    General O'Reilly. I think between shutting down the 
Government and continuing contracting in a very inefficient 
way, I would rather continue the contracting in a very 
inefficient way. But, if I could, there are some impacts there 
that I would just like to clarify and make sure that I have 
represented correctly.
    It is not only the Government operations but, obviously, 
all of the contracts out there. Especially as we proposed the 
Phased Adaptive Approach, there are a lot of new starts in this 
budget that we are not allowed to turn on.
    And there are particular issues such as the National 
Defense Authorization Act in December authorized my agency to 
procure Iron Dome, the system that the Israelis have developed 
for short-range defense, $205 million. Even though the 
President has committed and it is in the authorization act, it 
is a new start for me, and so I can't even execute what the 
authorization act has asked me to do.
    So it is that and it is the impacts to the workforce; 
trying to determine new contracts and things, whether or not 
they are going to be hired or laid off. It is buying material. 
We can't commit legally to buying material because we don't 
have the follow-on funding. As I said, up in Alaska we are 
missing at a critical time for hiring our construction 
workforce. It is extremely difficult, and it is extremely 
inefficient to operate this way, even though I said that would 
be better for me than stopping and not movingly forward at all 
with any of my--the work that the Government has asked me to 
execute.
    Mr. Brooks. So even if the Government shutdown was 2 to 3 
weeks, something relatively short, sometime in April, you would 
prefer to have a CR off and on for the remainder of the year 
rather than risk a 2- to 3-week shutdown? That would be easier 
for you to operate under?
    General O'Reilly. That is the worst of two evils, but at 
least we are accomplishing some work. If we completely shut 
down, then there are a lot of also inefficiencies associated 
with that, with having to terminate and start up activities.
    Mr. Brooks. Do you have a judgment as to whether you would 
qualify as an essential function and thereby MDA be exempt from 
the shutdown?
    General O'Reilly. Sir, there are functions that we do that 
are in direct support of the combatant commanders; and it would 
affect, for example, our homeland defense system. We need to 
continue that operation and the oversight and the Government 
participation of GMD. And it is an operational system, and 
there are many others at the regional level that I would deem 
are in direct support of combat operations or ongoing military 
operations.
    Mr. Brooks. The GMD program, as you know, has seen sizable 
budget cuts in the past 3 years; and the fiscal year budget 
request further reduces the GMD program by $185 million. How 
are these reductions impacting GMD operations, sustainment, and 
any modernization activities?
    General O'Reilly. During this period of time, the 
operations aspects are actually increasing over time in that 
budget. What those budget reductions primarily reflect is the 
completion of a lot of construction up at Fort Greely that was 
originally intended, and now that work has come to an end.
    However, we are starting new work. The upgrade of the Clear 
radar, for example, that is about $200 million. That is for the 
purpose of enhancing the homeland defense. So there are a lot 
of other activities that are being initiated which, in fact, 
support homeland defense but are not part of the GMD program.
    But for O&S [Operations and Support], we are increasing 
over time because we have a greater operation--as more assets 
become operational, so does the need to maintain the system. 
But, primarily, those reductions were associated with power 
plants and other infrastructure, which we are now completing.
    Mr. Brooks. Okay. I am just about out of time, but in view 
of the most recent tests that were unsuccessful, does the 
fiscal year 2012 budget request still reflect your funding 
requirements for GMD?
    General O'Reilly. Sir, they do. But some of that funding--
some of the activity we will have to defer and accomplish in 
future budget requests.
    Specifically, we have stopped the production of the 
enhanced kill vehicles as this time so that--because we don't 
know exactly what the solution is. We want to verify the 
solution and the correction and then upgrade those kill 
vehicles, make those corrections, and then continue the 
production line. So we do have a stop of about--for seven kill 
vehicles that are currently in production at this time. And 
because we are not completing it, there is a reduction in our 
need, our funding; and we are using that funding in order to 
support these other activities to return to flight testing.
    Mr. Brooks. Thank you, General O'Reilly and the other 
members of the panel; and, Mr. Chairman, I yield the remainder 
of my time.
    Mr. Turner. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    General O'Reilly and Dr. Gilmore, what do you consider will 
be the most demanding developments in terms of technology 
improvements that are required for the PAA Phase 2 and 4--I'm 
sorry--Phase 2 through 4?
    Dr. Gilmore. To some extent the most demanding technologies 
and the most demanding capabilities for Phase 2 through 4 are 
common to all of missile defense. First of all, you have to 
demonstrate that you can actually discriminate if the threat 
comes with countermeasures. Because, if you can't, that is 
obviously a problem; you won't be able to intercept what you 
need to intercept.
    That is a problem as you move towards trying to negate 
longer-range threats in particular. And as we move into later 
phases of the Phased Adaptive Approach, that could become a 
greater problem as time goes by.
    Another thing that has to be demonstrated is the capability 
to do Engage-on-Remote. So you have forward-based sensors and 
forward-based radars that are doing the tracking which then 
provide that information over communications net and through 
the Battle Management Command and Control system to the actual 
platform that will launch an interceptor. And that intercept 
will sometimes have to occur outside the field of view of the 
radar that might be organic to the intercept platform. That is 
another important capability that has to be demonstrated in 
order to realize all of the protection that would be provided 
by the Phased Adaptive Approach.
    Those are just two things that come to mind, but, General 
O'Reilly, if you care to say something else?
    General O'Reilly. Ma'am, I believe the individual 
development of the individual components--the sensors, the 
command and control processors, the missiles--they are not 
inherently more difficult to develop than ones we are 
developing and have successfully developed today. I believe the 
real challenge in 2, 3, and 4 is each time we move to a new 
level of capability with missile defense they become more--
those capabilities become more interdependent on each other so 
that we can--the Aegis ship, for example, in Phase 2 doesn't 
need to see the missile before we go ahead and launch a missile 
because we are relying on some other radar. So it is the 
integration.
    And just to give an idea, in the next two years the 
operational tests, for example, that Dr. Gilmore has referred 
to earlier, it is actually going to have two medium-range 
missiles in the air simultaneously, an Aegis ship in a position 
to shoot it down. But if it does not, THAAD has to be right 
behind it to be ready to shoot it down, and we are going to 
shoot another missile at THAAD simultaneously during that 
period of time that it has to worry about. And just when it is 
most difficult, we are going to launch a third missile so that 
a PATRIOT system underneath it has to operate with all the 
effects of the other intercepts.
    So as we continue to become more and more complex, operate 
live fire testing is important, but the accreditation of our 
models and SIMS [simulations] so that we have confidence in 
them is going to become more important. All of this is geared 
toward the complexities.
    Phase 3, we are now reaching out twice the range we were 
before. So not only do you have more complex scenarios, but 
they are spread out over a greater period of time.
    But Phase 4 actually becomes easier. Because if you are 
going to--it is just like our laser interceptions last year of 
a boosting missile. The targets don't cost very much because 
there is no target--there is no payload because we are trying 
to destroy it early in the flight. Or, if it is, it is a 
simplistic payload. And the range infrastructure, all of that 
is much smaller because the entire flight from which we are 
trying to destroy the missile occurs in 2 or 3 minutes, rather 
than 30 minutes, over a much smaller piece of land.
    So that capability of the SM-3 IIB will actually drive us 
to more cost-effective missile defense and more cost-effective 
testing and deployment. So I believe the challenge is for Phase 
2 and 3 primarily to demonstrate all of the integration which 
is necessary.
    Ms. Sanchez. Thank you.
    Thank you, Mr. Chairman.
    Mr. Turner. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Ahern, with regards to--is it ``ME-ADS'' or ``MEADS''? 
How do we pronounce that?
    Mr. Ahern. ``ME-ADS'' is the way I do it, sir.
    Mr. Larsen. I'll use ``ME-ADS'' so we will be talking the 
same language. At least we will start off talking on the same 
page here.
    From the staff memo, it says the penalty on the termination 
is $846 million. Is that about right?
    Mr. Ahern. That is what I was trying to describe earlier. 
That is the subtraction between our original MOU commitment and 
what we have already provided. And that is about the right 
number today, yes, sir.
    Mr. Larsen. And then the 2012 and 2013 budgets anticipate 
about $104 million----
    Mr. Ahern. $804.
    Mr. Larsen. $804 million. So a difference of about $42 
million between terminating it today and what we plan on 
spending over the next two budget cycles; is that about right?
    Mr. Ahern. Yes, the maximum termination liability, $846 
million, and that is just based on a snapshot in time.
    Mr. Larsen. Right.
    Mr. Ahern. And then the request for the budget is based on 
our MOU commitment for 2012 and 2013. So, within that range, 
yes, sir, those numbers are correct.
    Mr. Larsen. When does the MOU commitment end and the threat 
of a termination penalty end with it?
    Mr. Ahern. I am not an attorney, but I am going to tell you 
my understanding is, when the money has expired, then the MOU 
is over. I think I have the MOU available. I will take the 
question for the record, but I want--this is an opportunity to 
do this.
    [The information referred to can be found in the Appendix 
on page 95.]
    Mr. Ahern. We have no obligation to put more money into the 
MEADS program after we have executed 2012 and 2013. So, from 
the standpoint of are you worried that I will be back again 
asking for money in 2014 or 2015 for MEADS, no, sir. It would 
require an amendment to that MOU in order to be able to put 
more money into it. We have no intention of amending that MOU. 
Had we decided to go forward with what I described in my 
opening statement as the third option of adding the additional 
funding, that would have required an amendment.
    So I think that my right answer to your question is, there 
is no termination liability when the last dollar on the last 
contract is expended.
    Mr. Larsen. If you planned to come up here in 2014 and ask 
for more money I would make sure that the chair, or whoever it 
was, didn't invite you so you couldn't come up here and ask for 
more money because--I am half joking, but it just seems that, 
between the penalty and what we put in the budget, it is almost 
the same. I am just trying to understand better the 
decisionmaking process to get us to this point.
    But I think you have also--just one issue, when does this 
end? We haven't really delved into MEADS too much over the last 
several years as much as we have done other parts of the 
Missile Defense Agency budget, and it might be worth us maybe 
doing a look back on MEADS a little bit on this side of the 
microphone.
    Mr. Ahern. Yes, sir. I am not sure--I think--I am not sure 
where the question is, but I think that the effort going 
forward, how the decision was made, as I described--tried to 
describe, it was that going through the rationale of our 
commitment to our allies, what we had accomplished, what we had 
expected to accomplish, the affordability aspect of it. Because 
were we to commit to continuing--there was that billion dollar 
bill plus, really, implicit in Dave Ahern's mind, if you are 
going to do that you really have to commit to production. And 
we were not ready to do that. There was a recognition of the 
risk.
    So I think that is all wrapped up there. And it is a fact 
our maximum termination liability is within reason, with small 
estimating, whatever percentage that is, of what our obligation 
to the contract is. But I don't think that was--it was not what 
I was thinking of, anyway. And I am not the decisionmaker, but 
I was certainly involved in it. It was those four reasons: You 
are close; you have got the CDR [Critical Design Review]; you 
have got allies; do what you can, but recognize that you are 
not going to go any farther.
    So I won't be up here in 2014, sir. And then also you are 
taking some risk with the rest of the portfolio.
    Mr. Larsen. And if I may, Mr. Chairman, what I understand 
from the decision that MDEB has made with regard to MEADS, 
though, is we go forward for the next 2 years on this and then 
we end up with a prototype that provides a set of capabilities 
that could be used for something else later. Is that what I 
gathered from your written testimony at least?
    Mr. Ahern. Sir, let me make one correction. The MDEB had 
nothing to do with the decision on MEADS. That is a 
straightforward Army, OSD, going forward to up the SECDEF 
[Secretary of Defense] decision.
    But at the end of the 2\1/2\ years we will have 
demonstrated if the plan works as we expected. And that is part 
of my job, is to ensure that we do. We will have the fire 
control radar. We will have shot a couple of live shots with 
the MSE [Missile Segment Enhancement] missiles. We will have 
used the command and control system. We will have done, as Dr. 
Gilmore mentioned in one of the other systems, an Engage-on-
Remote. So there are some realistic, focused achievements in 
the ``system of systems'' kind of aspect for MEADS to 
demonstrate that it is--that the concept is proven.
    And then there will be technologies. Our technologies--this 
is a big phased array--or not that big--but phased array 
antennas, mobile, lightweight, in X band and in UHF band, and 
they are modern electronic.
    So it is both a system of systems and a technology that 
will have been demonstrated available not only to the United 
States but also to Germany and Italy.
    Mr. Larsen. And one more question, Mr. Chairman.
    This is for Dr. Roberts and has to do the Phased Adaptive 
Approach, whether it is EPAA or APAA or the regional aspect of 
this, and having to do with the numbers of destroyer platforms 
that you anticipate will be available. Can you talk to us a 
little bit about coordination of your policy shop with the U.S. 
Navy and how you anticipate having the adequate number of Aegis 
destroyer platforms to implement this? Plus knowing full well 
we have a lot of other things our destroyers need to do?
    Dr. Roberts. The missing voice today on this panel is the 
Joint Staff. And Admiral Macy, I believe, is on foreign travel 
and is not available today.
    But, fundamentally, the answer to that question comes from 
them, meaning the Joint Staff is responsible for adjudicating 
competing requests from combatant commanders for scarce 
resources. And our function has been to set some policy goals, 
support the development of an acquisition strategy that grows 
capability as rapidly as we can afford, and to provide what 
policy context is needed for the Joint Staff to adjudicate 
these competing demands.
    And I think that is--it is fundamentally a responsibility 
of the Joint Staff.
    Mr. Larsen. Thanks. We will follow up with them.
    Thank you, Mr. Chairman.
    Mr. Turner. Thank you, gentlemen. I want to thank you for 
your dedication and your expertise.
    I want to personally thank Dr. Roberts and General O'Reilly 
for your work with the committee, both in the 101 sessions and 
in the private briefings that we have had and the classified 
briefings. I can tell you that, you know, this is substantial 
progress that has been made from our hearings a couple of years 
ago. I think certainly our European allies were all very 
impressed with what has occurred and what has been achieved 
there and their support for the Phased Adaptive Approach.
    I appreciate you working cooperatively with the committee, 
and I think what this has allowed us to do is to hone in on 
what the remaining items are, what the to-do list is, those 
items where we might need to exchange additional information. 
But I do greatly appreciate the way and the manner in which you 
are working with the committee and the members, and I think it 
really helps. By the time we get to this committee hearing, a 
lot of the questions that we have, a whole lot of background 
has been exchanged between us, and that really helps. So thank 
you very much.
    With that, we will be adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 31, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 31, 2011

=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 31, 2011

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN

    Mr. Ahern. Per the MEADS Design and Development (D&D) MOU 
(Memorandum of Understanding), Section 19.9, and absent a unanimous 
decision by the Partner nations to terminate the D&D effort early, the 
MOU will remain in effect until the successful completion of the D&D 
project or September 2016, whichever comes first.
    The termination liability is tied to our overall MOU funding 
commitment. Section V of the MOU states that the total program phase 
cost ceiling is $4 Billion equivalent U.S. dollars (EUSD) (in 2004 
dollars) and that each Participant will contribute its equitable share 
of the full costs of the MEADS project. The U.S. cost share of the MOU 
cooperative program is 58%, for a ceiling of $2.324B EUSD (2004 
dollars). In February 2011 (the time of the President's FY12 budget 
announcement), the remaining MOU funding commitment for the U.S. was 
$846 million. Since February, the U.S. provided the remaining FY11 
funding for the program per our MOU commitment. The U.S. obligation 
toward cooperative MOU program costs for NATO MEADS Management Agency 
in FY 12 and FY 13 are $350M and $338M, respectively, totaling $688M. 
The remainder of the U.S. FY 12 and FY 13 budget amount, which is 
approximately $116M, is required for U.S.-specific MEADS work--
including Government Furnished Property (GFP) obligations under the 
MOU--implemented through the US Army National Program Office.
    In the event of a unilateral MOU withdrawal by a Partner nation, 
the remaining partners would have 6 months to determine whether to 
terminate or to restructure the contract and proceed. Should the 
remaining nations proceed, the withdrawing nation would be responsible 
for restructure costs up to their MOU obligation limits (up to $804M 
for the United States, as noted above). Should the remaining Partners 
choose to terminate NATO MEADS Management Agency (NAMEADSMA) contracts, 
contract termination costs would be based on a termination proposal 
from the prime contractor as well as any related U.S. GFP termination 
costs. Because our MEADS Partner nations have made it clear that they 
have no interest in pursuing termination, NAMEADSMA has not requested 
detailed contract termination proposals. Contract termination costs 
(and related government termination costs) in a contract termination 
scenario would be driven by existing obligations like long-lead item 
procurements and orders, targets, test and integration infrastructure, 
and other contract costs (leases, support contractors, etc). In a 
unilateral withdrawal, the withdrawing nation would be liable for 
termination or restructure costs up to the MOU commitment ceiling. [See 
page 29.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 31, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. On March 10, 2011, Under Secretary of State Ellen 
Tauscher was in Moscow to propose the establishment of a ``Missile 
Defense Data Processing Center'' that would synthesize U.S./NATO and 
Russian sensor data. Can you describe this concept in more detail and 
describe what data and technology would be shared and how they would be 
shared?
    Dr. Roberts. Ballistic missile defense (BMD) cooperation with 
Russia is an Administration priority. To this end, we are pursuing BMD 
cooperation in the following three separate, but related, bilateral 
tracks:

    Defense Relations Working Group: Defense Secretary Gates and 
Defense Minister Serduykov established this working group to further 
practical cooperation in a number of areas, including missile defense.

    International Security and Arms Control: Under Secretary Tauscher 
and Deputy Foreign Minister Ryabkov are engaged in a dialogue that 
includes such topics as strategic stability.

    Military Cooperation Working Group: Chairman of the Joint Chiefs of 
Staff Mullen and Chief of the General Staff Makarov meet periodically 
to discuss a range of cooperative efforts including missile defense.

    We are also pursuing multilateral BMD cooperation with Russia 
through the NATO-Russia Council (NRC). The effort in the NRC is 
synchronized with our bilateral efforts.
    I am prepared to provide more details in a classified setting on 
the specific proposals we have made to Russia and the outlook for 
progress in these areas.
    Mr. Turner. The November 2010 Lisbon Summit Declaration expressed 
NATO's desire to work with Russia on missile defense: ``We are actively 
pursuing cooperation with Russia on missile defence, including through 
the resumption of theatre missile defence exercises.'' Describe the 
scope of any missile defense exercises that are being considered, and 
what systems or capabilities Russia would have to provide to make these 
exercises equitable and beneficial for both parties?
    Dr. Roberts. NATO and Russia agreed to resume theater missile 
defense cooperation that is likely to include exercises. The NATO-
Russia Council (NRC) Missile Defense Working Group is establishing a 
program of work that will include a joint analysis and exercise 
proposals.
    The scope of missile defense exercises will be determined within 
the NRC Missile Defense Working Group, but our view is that the 
exercises should have a greater scope and scale than previous 
exercises, which focused on tactical missile defense cooperation.

    Mr. Turner. A few changes to the GMD program are reflected in this 
year's budget request. These include a decision to ``mothball'' Missile 
Field 1 in Alaska instead of decommissioning it, and beginning 
preliminary design work to locate an interceptor communications 
terminal at an East Coast site by 2015. Why did MDA make these 
changes--is there a specific development which motivated MDA to adopt 
these changes? Is MDA considering other changes to the GMD system to 
improve its reliability and operational effectiveness, or to enhance 
its ability to protect the U.S. homeland against evolving threats?
    General O'Reilly. In coordination with OSD Policy, MDA decided to 
place Missile Field 1 in a non-operational state (``mothball'') instead 
of permanently decommissioning the missile field. While in a mothball 
status, the 6 silos in missile field 1 can be hardened and reactivated 
in two years at a cost of approximately $200M as a hedge against any 
future change in threat to the Homeland. There are no current threats 
dictating the need, nor plans to reactivate MF-1 in the future; 
however, we determined preserving the asset in a non-operational status 
was prudent over destruction based in uncertainties inherent in threat 
estimates.
    MDA is adding an East Coast interceptor communication terminal 
(IDT) to provide additional and redundant communication with GBIs 
launched from Fort Greely, AK, and Vandenberg AFB, CA. These additional 
communication opportunities allow additional GBI updates from sensors 
to improve performance against threats to the eastern United States 
from the Middle East. MDA originally planned to install an East Coast 
IDT in 2004, but delayed it while focusing on a 3rd GMD site in Europe. 
We concur with the previously identified need and are proceeding with 
its installation.
    The GMD's reliability and operational effectiveness continue to 
improve through upgrades to existing GBI components and system 
software. Our ongoing GBI upgrade program replaces older items with new 
higher-reliability components to enhance mission readiness. Our ongoing 
stockpile reliability program evaluates system components throughout 
their service life to identify any negative trends needing correction. 
Also, we are improving the GMD's ability to utilize additional sensor 
data and better discriminate threat objects during flight. Finally, we 
continue to develop the 2-stage GBI. After last year's successful 
initial flight test, we plan to conduct an intercept with a two-stage 
GBI as a potential hedge to allow for a longer intercept window of time 
if ICBMs were launch against the United States from Northeast Asia or 
the Middle East.
    Mr. Turner. The SM-3 Block IIB interceptor is planned for 
deployment by 2020 to improve protection of the U.S. homeland against 
potential ICBM attack as part of Phase 3 of the EPAA. The FY12 budget 
request provides an additional $1.7 billion to the SM-3 Block IIB 
development program across the Future Years Defense Program (FYDP). Can 
you describe the key technology risk areas associated with the SM-3 
Block IIB and MDA's plans for retiring that risk?
    General O'Reilly. The SM-3 Block IIB will counter short, medium, 
intermediate, and long range threats, including ICBMs, earlier in their 
trajectories than is currently possible. We are focusing SM-3 Block IIB 
design on enhancements over existing SM-3 variants including increasing 
interceptor velocity, improving the ability of the kill vehicle to 
maneuver, and increasing the range at which the kill vehicle seeker can 
discern the threat. The SM-3 Block IIB will leverage existing and 
planned Aegis Weapon System and Mk41 Vertical Launching System 
interfaces. Today, we are executing a two-pronged strategy to achieve 
capability goals and plan for the product development phase. In early 
April, MDA awarded three Concept Definition and Program Planning 
contracts (Boeing, Lockheed Martin and Raytheon). Each contractor will 
conduct missile trade studies to define SM-3 Block IIB concepts, 
challenges, and associated program plans. Concept definition products 
will include detailed performance characterizations, technology 
maturity assessments, and demonstration of key technologies. In 
addition, we are executing technology risk reduction efforts to mature 
key interceptor components that increase performance and potentially 
reduce cost. Specifically, we are investing now with multiple vendors 
in kill vehicle divert and attitude control systems, upper stage 
propulsion, advanced seekers, and lighter weight structures and 
materials to reduce inert mass.
    Mr. Turner. The SM-3 Block IIA interceptor also requires the 
maturation of key technologies. An additional $19 million was provided 
in the FY12 budget to do this, but no additional funds were added to 
the FYDP. Are you confident that the funds in the FYDP are sufficient 
to complete development and start testing and production of the SM-3 
Block IIA interceptor? Please provide any fact-of life revisions to the 
FYDP funding profile and schedule, including changes in any milestones, 
since the release of the FY12 budget request.
    General O'Reilly. The funds requested in the FYDP for the SM-3 
Block IIA missile are sufficient to complete development and start 
testing and production. The SM-3 Block IIA development plan is 
currently under review to determine the lowest risk development 
approach to achieve a 2018 deployment. While the overall development 
timeline remains the same, the sequencing and timelines associated with 
flight testing in 2015-2017 may be adjusted based on results of ground 
and early testing in 2014 and 2015. Production plans remain as 
requested in PB12.
    Mr. Turner. Former MDA Executive Director, Mr. David Altwegg, said 
there is a ``big-time quality problem'' and ``a lack of attention to 
detail'' across the board for systems delivered to MDA. Recent examples 
include the air-launched target intended for a THAAD intercept test and 
the exo-atmospheric kill vehicle (EKV) on the ground-based interceptor 
(GBI). Is MDA considering changes to its contracts to create stronger 
defect or quality control clauses and increase contractor liability for 
poor performance?
    General O'Reilly. MDA is currently developing a defect clause to 
increase contractor liability for poor performance. MDA is looking at 
the fee and the profit that we are providing our contractors and 
evaluating our ability to go beyond the scope that we currently have 
defined in our award fees for quality control and extending it to a 
much greater pool of award fee money, to include even past awarded 
money. This will enable the government to be compensated for egregious 
errors in quality control.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. Do you think the ICBM threat from Iran and North Korea 
is developing more quickly than anticipated and do you think the 
current hedging policy is adequate to respond to the threat to our 
homeland and the threat to our deployed troops and allies, and why?
    Dr. Roberts. Regional actors such as North Korea and Iran continue 
to develop long-range missiles that could threaten the United States. 
Although there is some uncertainty about when and how this type of ICBM 
threat to the U.S. homeland will mature, the United States already 
possesses a capacity to counter the projected ICBM threats from these 
States.
    In order to maintain this advantageous position, the Administration 
is taking several steps to maintain and improve the protection of the 
homeland from the potential ICBM threat posed by Iran and North Korea. 
These steps include the continued procurement of ground-based 
interceptors (GBIs); the procurement and deployment of additional 
sensors; and upgrades to the Command, Control, Battle Management, and 
Communications (C2BMC) system.
    In addition to these improvements, the United States must also be 
well hedged against the possibility of rapid threat developments or 
delays in U.S. technological advances. The Administration has already 
taken the following decisions to strengthen the U.S. hedge posture:

    <bullet>  The construction of Missile Field 2 at Fort Greely, 
Alaska, including a 14-silo configuration to accommodate a contingency 
deployment of eight additional GBIs, if needed;

    <bullet>  Six GBI silos at Missile Field 1 at Fort Greely are being 
mothballed instead of decommissioned, allowing their return to service 
within two years, if necessary; and

    <bullet>  The development and assessment of a two-stage GBI, which 
will continue to preserve future deployment options.

    The Administration is considering additional steps to strengthen 
the U.S. hedge posture. We are studying threat developments, future 
capabilities, and deployment options for a range of scenarios. In 
addition, we are evaluating the deployment timelines associated with 
fielding additional capabilities, with an eye to enabling rapid 
responses to triggering events. Our objective is to enable aggregate 
improvements that increase probability of kill, raid capacity, and 
battle space. This work involves a significant amount of classified 
information from both the Intelligence Community and the system 
developers. We have committed to brief the Committee on the results of 
this work in a classified setting once it is complete.
    Ms. Sanchez. Preserving strategic stability with Russia and China 
is important as we defend ourselves against the threats posed by the 
nuclear programs in Iran and North Korea. Are there any plans to engage 
China? What are the risks of not engaging Russia and China?
    Dr. Roberts. It is important to engage Russia and China on 
strategic issues, including missile defense, to further our 
understanding, develop trust, and avoid misunderstandings that can lead 
to dangerous miscalculations.
    The Administration is committed to substantive and sustained 
dialogue with China, with the goals of enhancing confidence, improving 
transparency, and reducing mistrust on strategic security issues.
    We are pursuing a broad agenda with Russia focused on shared early 
warning of missile launches, technical cooperation, and even 
operational cooperation. Cooperation with Russia could offer some 
important tangible benefits for the United States--and also Russia. 
Cooperation is also the best means for Russia to gain an understanding 
of our ballistic missile defense (BMD) plans and programs in order to 
build confidence that our European missile defenses neither target 
Russia, nor pose a threat to Russia's strategic forces.
    As we pursue missile defense discussions with Russia and China, the 
Administration will continue to reject any negotiated restraints on 
U.S. ballistic missile defenses.
    Ms. Sanchez. Could you outline what savings were derived from 
efficiencies? Have these reductions increased the risk for any program 
or impacted your ability to respond to requirements?
    Dr. Roberts. The Missile Defense Agency (MDA) did not have any 
program adjustments; these were efficiencies to purchase same program 
scope with fewer dollars. The efficiencies were generated from changes 
with respect to manufacturing process efficiencies, savings through 
competition of major contracts and consolidation of tests to achieve 
objectives with fewer events.
    MDA implemented a more efficient approach to the Airborne Infrared 
program to focus on development and integration of the sensor package 
and software that would enable the capability.
    Additionally, with a more efficient acquisition strategy, MDA was 
able to revise the cost of the AN/TPY-2 radars. MDA also reduced the 
Aegis 5.1 Aegis Weapons System cost by aligning the schedule to the 
Navy's Advanced Capability Build (ACB) 16 effort.
    Ms. Sanchez. The March 2011 GAO report on missile defense notes 
that after 14 years of development and $5 billion, the Airborne Laser 
achieved its first successful short-range intercept in February 2010, 
though a second intercept during that test did not occur due to the 
laser shutting down prematurely. Could you outline the challenges 
stemming from the second part of this February 2010 test and the 
subsequent failed tests in September and October 2010, and explain what 
has delayed the March 2010 test? Should we remain optimistic about this 
program?
    Dr. Roberts. In February 2010, the Airborne Laser Test Bed (ALTB) 
successfully shot down a threat-representative short-range ballistic 
missile; however, the second intercept during this same flight did not 
end in destruction of the missile. The ALTB successfully engaged the 
missile, a Terrier Black Brant, but the safety abort system functioned 
as designed and shut down the laser early upon detecting stray light in 
its internal sensors. Chemical contamination within the laser caused 
this stray light. Although destruction of the second target did not 
occur, numerous other test objectives were accomplished for this 
mission: engaging multiple targets in the same mission; delivering a 
high-energy laser (HEL) beam to the boosted target; and demonstrating 
acquisition, track, and pointing of high- and low-power lasers.
    During testing in September/October 2010, the ALTB experienced two 
additional technical problems that resulted in unsuccessful 
engagements. In the first mission, a software issue in the beam-control 
system steered the high-energy laser slightly off center. The ALTB 
safety abort system worked as designed, detected this shift, and shut 
down the laser. The second technical problem was a micro-switch failure 
in a laser subsystem, which prevented a successful mission test. The 
laser incorrectly reported it was not ready, and a safety-default 
aborted the engagement. The failure investigation determined the cause 
to be a single micro-switch on an iodine valve that incorrectly 
reported a closed-valve condition. Both technical problems have been 
corrected.
    As a prototype, non-operational test bed, the ALTB incorporates 
cutting-edge technology and systems that can be challenging to maintain 
and operate. The program upholds stringent
    Go/No-Go criteria that ensure air and ground crew safety and 
minimize failed launch attempts. Meeting these criteria, coupled with 
range availability and weather, delayed the March 2011 test.
    The ALTB employs and incorporates highly advanced technologies and 
is credited with numerous groundbreaking directed energy capability 
demonstrations. These activities are carried out according to the 
highest safety standards to ensure that a catastrophic mishap does not 
occur. As such, some delays are to be expected. However, the ALTB 
continues to collect Science and Technology data in accordance with a 
plan developed by the Department of Defense to support the development 
of future airborne ballistic missile defense systems. The Department 
annually evaluates the contribution of ALTB to the development of 
directed-energy technologies as part of the annual budget development 
process.

    Ms. Sanchez. Do you think the ICBM threat from Iran and North Korea 
is developing more quickly than anticipated and do you think the 
current hedging policy is adequate to respond to the threat to our 
homeland and the threat to our deployed troops and allies, and why?
    General O'Reilly. [The information referred to is classified and is 
retained in the subcommittee files].
    Ms. Sanchez. After two GMD flight test failures in a row, why 
should we have confidence that the GMD system can defend the United 
States?
    General O'Reilly. There are two versions of the GMD interceptor. 
The two most recent flight test failures involved a new version of the 
GMD EKV, called the Capability Enhancement II (CEII) EKV.
    Today there are 20 operational Capability Enhancement I (CEI) EKVs 
in the emplaced fleet. In its last three flight tests, the CEI has 
intercepted three times in a row. These CEI flight tests were conducted 
against appropriate threat scenarios.
    Based on current intelligence, the CEI fleet of interceptors are 
sufficient while MDA addresses and corrects the deficiencies associated 
with the CEII EKVs.
    Ms. Sanchez. How do you balance the need for ensuring an 
operationally effective missile defense with the pressure to deploy 
missile defense systems quickly? Will scheduling and deployment 
pressures lead to short-cuts in testing?
    General O'Reilly. The Missile Defense Agency follows a 
comprehensive, systems engineering approach in developing and testing 
ballistic missile defense capabilities.
    The Agency remains committed to the testing processes and program 
decisions based on rigorous engineering analysis of test data, as 
described in the Integrated Master Test Plan jointly developed by MDA, 
Operational Test Agency and DOT&E. The specific data required for 
comprehensive testing of the BMDS has been identified and is updated in 
our Integrated Master Test Plan every six months to ensure that 
scheduling and deployment pressures will not lead to shortcuts in 
testing.
    Ms. Sanchez. How many successful operationally realistic GMD tests 
have we had? (How many included countermeasures and have we designed a 
test scenario that envisioned more than one incoming ICBM?)
    General O'Reilly. We have conducted three successful operationally 
realistic GMD intercept tests against first generation ICBMs, Flight 
Test Ground-based Interceptor (FTG)-02, FTG-03a, FTG-05. On FTG-02 and 
FTG-03a, there were no countermeasures, and on FTG-05, the planned 
countermeasures did not deploy. All future GMD intercept tests include 
countermeasures of increasing complexity. FTG-06b in FY13 is the next 
planned intercept with countermeasures.
    The Integrated Master Test Plan (IMTP) currently plans for 2 
operational tests, Flight Test Operational (FTO)-02 and -03. FTO-03 
will demonstrate a multiple simultaneous engagement (MSE) of one ICBM 
threat with countermeasures and one IRBM threat with countermeasures.
    Ms. Sanchez. What are you doing to ensure that if poor performance 
by the contractor results in test failures, cost liability is 
shouldered by the contractor, not MDA? Are you ensuring that this 
clause is improved and rectified in future contracts?
    General O'Reilly. MDA is currently developing a defect clause to 
increase contractor liability for poor performance. MDA is looking at 
the fee and the profit that we are providing our contractors and 
evaluating our ability to go beyond the scope that we currently have 
defined in our award fees for quality control and extending it to a 
much greater pool of award fee money, to include even past awarded 
money. This will enable the government to be compensated for egregious 
errors in quality control.
    Ms. Sanchez. Can you describe how the Integrated Master Test Plan 
(IMTP) will ensure that we mature technologies based on operational 
testing? What is the value of operational effectiveness for deployment?
    General O'Reilly. The IMTP contains both developmental and 
operational tests. Through the collaborative efforts of test designs, 
test objectives (described as Critical Engagement Conditions (CEC) and 
Empirical Measurement Events (EME)), tests are constructed and data is 
gathered to determine a technology's maturity, system design 
achievement, and to validate models. The data acquired through ground 
and flight tests allows MDA, DOT&E, the OTAs, and Combatant Commanders 
(COCOMs) to assess the system performance, effectiveness, and 
suitability of the capabilities prior to making procurement or 
deployment decisions. The current IMTP, v11.1 has a total of 73 CECs 
and 61 EMEs that shape the design of flight and ground testing 
programs; and inform system assessments and the maturity of 
technologies. This IMTP also includes a series of element (ie: Aegis, 
THAAD, etc) operational tests and BMDS system level operational tests 
(ie: FTO-01) that the Operational Test Agencies use to formulate their 
assessment of system maturity. The Operational Test Agencies are fully 
engaged in the development, and execution of the IMTP and they, with 
the Director, MDA, approve each version of the IMTP.
    Operational effectiveness is defined as the overall degree of 
mission accomplishment of a system when used by representative 
personnel in the environment planned or expected for operational 
employment of the system considering organization, doctrine, tactics, 
survivability, vulnerability, and threat. The Operational Test Agencies 
(OTA) use data collected from flight and ground testing to make a 
statement of operational effectiveness after MDA determines that the 
deploying system is functioning within its technical design 
specifications. MDA bases its technical declaration upon a series of 
hardware-in-the-loop ground tests (integrated and distributed), 
operational flight tests, and a final system integration and check-out 
event (SICO) upon deployment. The Services or Combatant Commanders use 
both the technical declaration and operational effectiveness 
assessments in their determinations to accept and deploy weapon 
systems.
    Ms. Sanchez. What is the cost of a GMD intercept test?
    General O'Reilly. Each flight test is unique. The results and 
findings from previous flight tests are reviewed and adjustments to 
testing scenarios adopted as required. Overall, MDA builds on the 
successes of each flight test, and future tests are designed to be more 
complex. Following is a breakdown of MDA's most recent GM tests.
    Ms. Sanchez. The current acquisition plans envision an inventory of 
52 GBIs. This includes 30 deployed GBIs, 16 for tests, and 6 for 
spares. Should you need additional GBIs for additional tests or other 
requirements, when would this decision have to be made? How long will 
the GBI production line remain warm? Would the costs necessarily 
increase if we wait, and by how much?
    General O'Reilly. The Department has the option of purchasing 
additional GBIs on the upcoming GMD Development and Sustainment 
Contract (DSC) to meet testing or operational requirements through 2016 
without incurring a production break of our unique component suppliers. 
The GBI supplier base will remain warm through 2016. First and second- 
Tier suppliers will remain warm beyond that time through a combination 
of new manufacturing and GBI upgrades. MDA does not anticipate a cost 
increase beyond the current GM program plan for purchasing additional 
GBIs if the decision is made prior to 2016.
    Ms. Sanchez. Given the impacts of the continuing resolution, is the 
FY12 budget request adequate?
    General O'Reilly. The MDA budget for 2011 through 2015 is based on 
the missile defense priorities set forth in the Ballistic Missile 
Defense Review (BMDR. MDA is in a position to execute planned PB11 
activities.
    Ms. Sanchez. Could you outline what savings were derived from 
efficiencies? Have these reductions increased the risk for any program 
or impacted your ability to respond to requirements?
    General O'Reilly. MDA did not have any program adjustments; these 
were efficiencies to purchase same program scope with fewer dollars. 
The efficiencies were generated from changes with respect to 
manufacturing process efficiencies, savings through competition of 
major contracts and consolidation of tests to achieve objectives with 
fewer events.
    MDA implemented a more efficient approach to the Airborne Infrared 
program to focus on development and integration of the sensor package 
and software that would enable the capability. Additionally, with a 
more efficient acquisition strategy, MDA was able to revise the cost of 
the AN/TPY-2 radars. MDA also reduced the Aegis 5.1 Aegis Weapons 
System cost by aligning the schedule to the Navy's Advanced Capability 
Build (ACB) 16 effort.
    Ms. Sanchez. What risk is there of a production gap between the end 
of production of SM3-IA missiles and SM3-IB missiles?
    General O'Reilly. FY11 Congressional funding actions have reduced 
the risk of a production gap between the loss of the SM-3 Block IA 
unique vendors and the start of the SM-3 Block IB production line. The 
Missile Defense Agency intends to procure up to 30 additional SM-3 
Block IA missiles in FY11 for delivery in FY13. An updated PB12 SM-3 
Buy/Delivery Plan is attached. [See page 105.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Sanchez. Are you confident that we will get assurances from the 
Japanese that they can provide the capabilities and meet the production 
timelines for manufacturing the SM3-IIA missile?
    General O'Reilly. The U.S. and Japanese governments are engaged in 
a series of discussions on SM-3 Blk-IIA production requirements. The 
U.S. has made it clear we expect each side to meet the other's 
production requirements; that position is understood by Japan. We 
intend to continue these bilateral discussions with the expectation of 
reaching agreement on a set of production principles later this year 
that would form the basis of future formal government to government 
production agreements.
    Japanese industry is planning to meet future production demand. For 
example, Mitsubishi Heavy Industries made capital investment to 
increase its capability to produce nosecones in its Komaki Plant. 
Additional machinery can be easily procured to meet production 
obligations. Ishikawajima-Harima Heavy Industries Aerospace Takasago 
Plant has excess floor space to build second and third stage rocket 
motors that can be used to meet production requirements.
    We are confident that these measures by the joint U.S.-Japan 
government-industry teams will result in the ability to meet future 
production timelines.
    Ms. Sanchez. The March 2011 GAO report on missile defense notes 
that after 14 years of development and $5 billion, the Airborne Laser 
achieved its first successful short-range intercept in February 2010, 
though a second intercept during that test did not occur due to the 
laser shutting down prematurely. Could you outline the challenges 
stemming from the second part of this February 2010 test and the 
subsequent failed tests in September and October 2010, and explain what 
has delayed the March 2010 test? Should we remain optimistic about this 
program?
    General O'Reilly. On February 3, 2010, the Airborne Laser Test Bed 
(ALTB) successfully shot down a solid propellant Terrier Black Brant 
(TBB). On February 11, 2010, the ALTB successfully shot down a threat-
representative liquid propellant ballistic missile. The ALTB 
subsequently engaged an additional TBB on February 11, 2010, but the 
safety abort system functioned as designed and shutdown the laser early 
upon detecting stray light in its internal sensors. Chemical 
contamination within the laser caused this stray light.
    In September 2010, ALTB experienced two other technical issues that 
resulted in unsuccessful engagements. In the first mission, a software 
issue in the beam control system steered the high energy laser slightly 
off center. The ALTB safety abort system worked as designed, detected 
this shift and shut down the laser. A micro-switch failure in a laser 
subsystem prevented a successful mission in October 2010. The laser 
incorrectly reported it was not ready and a safety-default aborted the 
engagement. The failure investigation determined the cause to be a 
single micro-switch on an iodine valve that incorrectly reported a 
closed-valve condition. Both issues have been corrected.
    As a prototype, non-operational test bed, the ALTB incorporates 
cutting-edge technology and systems that can be challenging to maintain 
and operate. The program upholds stringent Go/No Go criteria that 
ensure air and ground crew safety and minimize failed launch attempts. 
Meeting these criteria, coupled with range availability and weather 
delayed the March 2011 test.
    The ALTB employs and incorporates highly advanced technologies and 
is credited with numerous groundbreaking directed energy capability 
demonstrations. For example, in the past 9 months, ALTB has had 14 
successful non-intercept flight tests where unprecedented high energy 
laser atmospheric propagation data has been collected to greatly 
enhance our confidence in previously theoretical models and 
simulations. One test verified that ALTB can deposit lethal energy of 
more than twice the range previously demonstrated in the February 2010 
shoot downs. These activities are carried out with the highest safety 
standards to ensure that a catastrophic mishap does not occur. As such, 
some delays are to be expected. However, ALTB continues to collect 
Science and Technology data in accordance with a plan developed by the 
Department of Defense to support the development of future airborne 
ballistic missile defense systems. The Department annually evaluates 
the contribution of ALTB to the development of directed energy 
technologies as part of our annual budget development process.

    Ms. Sanchez. The current acquisition plans envision an inventory of 
52 GBIs. This includes 30 deployed GBIs, 16 for tests, and 6 for 
spares. Should you need additional GBIs for additional tests or other 
requirements, when would this decision have to be made? How long will 
the GBI production line remain warm? Would the costs necessarily 
increase if we wait, and by how much?
    Mr. Ahern. The Department has the option of purchasing additional 
GBIs on the upcoming GMD Development and Sustainment Contract (DSC), 
expected to be awarded in November 2011, to meet testing or operational 
requirements through 2016 without incurring a production break of our 
unique component suppliers.
    The GBI supplier base will remain warm through 2016. First and 
second-Tier suppliers will remain warm beyond that time through a 
combination of new manufacturing and GBI upgrades.
    We do not anticipate a cost increase beyond the current GM program 
plan for purchasing additional GBIs if the decision is made prior to 
2016.
    Ms. Sanchez. Could you outline what savings were derived from 
efficiencies? Have these reductions increased the risk for any program 
or impacted your ability to respond to requirements?
    Mr. Ahern. The efficiencies savings ($332.3 million in Fiscal Year 
2012) were generated as a result of a variety of actions aimed at 
improving performance, such as freezing civilian manpower, changes with 
respect to manufacturing processes, savings through competition of 
major contracts, and consolidation of testing events to achieve 
multiple objectives with fewer events. The MDA did not have any program 
adjustments that would impact risk levels; these were efficiencies that 
will allow the purchase of the same program scope with fewer dollars.

    Ms. Sanchez. How do you balance the need for ensuring an 
operationally effective missile defense with the pressure to deploy 
missile defense systems quickly? Will scheduling and deployment 
pressures lead to short-cuts in testing?
    Dr. Gilmore. Balancing adequate testing with the pressures of 
operational need is continually a challenge. This is especially true 
with the highly complex Ballistic Missile Defense System (BMDS) and its 
key interceptor elements: Ground-based Midcourse Defense (GMD), Aegis 
Ballistic Missile Defense (Aegis BMD), and Terminal High Altitude Area 
Defense (THAAD). The decision either to field early or to first perform 
adequate testing involves evaluation of many competing and complex 
risks. GMD was fielded early, Aegis BMD initial capability was fielded 
after a substantial number of flight tests, including an operational 
evaluation by the Navy, and THAAD will undergo an initial operational 
test and evaluation later this year to support a full-rate production 
decision. Dedicated testing of follow-on Aegis BMD capability 
supporting the President's Phased Adaptive Approach for the Defense of 
Europe is defined in the Integrated Master Test Plan (IMTP) that 
General O'Reilly and I approved recently. The first such test was 
conducted last month and was successful. The IMTP includes dedicated 
operational testing. If successfully executed, the IMTP will provide 
information sufficient to support rigorous quantitative estimates of 
BMDS performance.
    My office will continue to work closely with the MDA, the Combatant 
Commands, and the BMDS Operational Test Team. The default fielding 
strategy is to assure that system capabilities are adequately 
demonstrated by realistic testing prior to transitioning those systems 
to the acquiring services. The Department's leadership continually 
evaluates the information available from testing of BMDS performance as 
it decides how to respond to the evolving threat.
    Ms. Sanchez. Dr. Gilmore, you stated in your written testimony that 
the Integrated Master Test Plan (IMTP) is, for the most part, ``success 
oriented'' and ``does not incorporate explicitly repeat, or backup, 
tests that could be used to compensate for unsuccessful tests.''
    The GMD test track record counts 7 failures out of 15 tests since 
1999. This is difficult technology. Do you think there is enough 
flexibility in the plan to account for potential future failures? Does 
it adequately minimize cost and schedule delays that would result from 
potential future failed or canceled tests?
    Dr. Gilmore. In the Integrated Master Test Plan (IMTP), each test 
is designed to collect data for verification, validation and 
accreditation of models and simulations. These data elements are 
defined as either Critical Engagement Conditions (CECs) or Empirical 
Measurement Events (EMEs). The IMTP is revised every six months. When a 
test failure occurs, preventing collection of planned CECs/EMEs, the 
IMTP revision process, in which my office participates, reviews the 
current test program for opportunities to collect the CECs/EMEs using 
other tests or to add new tests, as necessary. This was the case with 
the recent failure during FTG-06. FTG-06a was planned and incorporated 
in a revised IMTP. When FTG-06a failed, the GMD flight test program was 
revised again in the IMTP General O'Reilly and I recently approved.
    No test plan as complex as the IMTP has ever been executed exactly 
as planned. There are always unforeseen system responses and failures 
that occur and require adjustments to the test plan. If such problems 
do not arise, it likely means that the testing being conducted is not 
robust. The delays in collecting data caused by test failures could 
vary from several months to more than one year depending upon many 
details including the BMDS element involved in the test and the targets 
used in the test. Costs and schedule delays are accommodated in part by 
the six-month revision process currently used to update the IMTP.
    Ms. Sanchez. How many successful operationally realistic GMD tests 
have we had? (How many included countermeasures and have we designed a 
test scenario that envisioned more than one incoming ICBM?)
    Dr. Gilmore. The Missile Defense Agency (MDA) and my office jointly 
published operational realism flight test criteria in 2005 as required 
by the Fiscal Year 2005 National Defense Authorization Act. There are 
nine criteria: Operationally-Representative Interceptor; Threat-
Representative Target; Complex Countermeasures; Operational Sensor(s); 
Operational Fire Control Software; Tactics, Techniques, and Procedures 
(TTPs); Warfighter Participation; Unannounced Target Launch; and End-
to-End Test.
    Every Ground-based Midcourse Defense (GMD) flight test since then 
has demonstrated at least some of the nine operational realism 
criteria. No test has yet demonstrated all nine criteria. FTG-05, 
conducted in December 2008, was the most operationally realistic test 
of GMD conducted to date, demonstrating at least partial operational 
realism for eight of the nine criteria. Although simple countermeasures 
were planned for FTG-05, a malfunction prevented deployment. The 
targets for both FTG-06 and FTG-06a successfully deployed simple 
countermeasures but the GMD kill vehicles malfunctioned before they 
could complete their intercepts in the countermeasures environments.
    No GMD tests against a true intercontinental ballistic missile 
(ICBM) have yet been conducted. A multiple simultaneous engagement of 
two ICBM targets by two GMD interceptors launched from Vandenberg AFB, 
California, is currently under consideration for inclusion in the third 
operational flight test, FTO-03, included in the Integrated Master Test 
Plan that General O'Reilly and I recently approved.
    Ms. Sanchez. Can you describe how the Integrated Master Test Plan 
(IMTP) will ensure that we mature technologies based on operational 
testing? What is the value of operational effectiveness for deployment?
    Dr. Gilmore. Operational test and evaluation will provide the 
Combatant Commanders with definitive understanding of the warfighting 
capabilities the BMDS provides, as well as the capabilities it does not 
provide. The test program defined in the IMTP was constructed so as to 
collect Verification, Validation, and Accreditation (VV&A) data for the 
models and simulations that may be used to support evaluations of the 
BMDS, while also demonstrating progressive capability of the BMDS and 
its associated elements through increasingly complex testing. Nearly 
every flight test has both developmental and operational test 
objectives. There are also three designated operational flight tests of 
the BMDS and an initial operational test and evaluation of the Terminal 
High Altitude Area Defense (THAAD) system. The IMTP is a rigorous plan 
for obtaining the test information needed to assess element and BMDS 
performance quantitatively. If the Missile Defense Agency can execute 
the IMTP, the data needed to validate models and perform rigorous 
quantitative assessments will become available.
    The Missile Defense Agency (MDA) plans for and my office assesses 
each test against the operational realism criteria developed and 
submitted to Congress in 2005. I will ensure appropriate operational 
testing is accomplished in compliance with Title 10 USC. This testing 
is scheduled for THAAD later this year and was accomplished by the Navy 
for the initial Aegis Ballistic Missile Defense capability. Ultimately, 
the number of purely operational tests conducted will depend upon a 
number of considerations including: capability demonstrated in the 
developmental test programs; estimated or demonstrated performance and 
reliability of the various missile components; experience with other 
similar missile systems; and availability of operational assets for 
testing or for replacement on operational status if missiles are 
expended during reliability testing. In the case of the BMDS, the 
entire test program--developmental testing, combined developmental/
operational testing, and operational testing--will be required and used 
to determine operational effectiveness, suitability and survivability.
    Ms. Sanchez. The March 2011 GAO report on missile defense notes 
that after 14 years of development and $5 billion, the Airborne Laser 
achieved its first successful short-range intercept in February 2010, 
though a second intercept during that test did not occur due to the 
laser shutting down prematurely. Could you outline the challenges 
stemming from the second part of this February 2010 test and the 
subsequent failed tests in September and October 2010, and explain what 
has delayed the March 2010 test? Should we remain optimistic about this 
program?
    Dr. Gilmore. The problems incurred during Airborne Laser Test Bed 
(ALTB) flight tests subsequent to the February 2010 lethality 
demonstration demonstrate the challenge of developing and fielding a 
reliable system as complex as the ALTB. Not only must the ALTB 
demonstrate lethality under realistic conditions and threat scenarios, 
it must also demonstrate that it can be depended upon to operate 
successfully when required. I discuss many of these issues in my 
Assessment of Operational Effectiveness, Suitability, and Survivability 
of the Airborne Laser which I submitted to Congress in January 2010. 
Currently, the ALTB is not an operational system and a substantial 
amount of additional work and funding would be required to make it an 
operational system.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Space is an integral part of the Missile Defense 
Agency, we have read much in the press and media over the past several 
months regarding the performance and success being demonstrated by the 
Space Tracking and Surveillance System (STSS) satellites. Can you 
discuss the specifics of what these two satellites have accomplished to 
date?
    General O'Reilly. The two Space Tracking and Surveillance System 
(STSS) Demonstrator satellites were launched in September 2009. From 
September 2009 to January 2011, the satellites accomplished their Early 
on Orbit Test (EOT) period, involving system functionality testing and 
payload/subsystem initialization and calibration activities.
    During the EOT period, the satellites also supported seven BMDS 
flight tests demonstrating the ability to track missiles with both the 
acquisition and track sensors, conduct an acquisition sensor to track 
sensor handover of a missile in flight, track aircraft in afterburner, 
and track resident space objects (satellites). The calibration and 
system functionality test results showed the satellites are performing 
at or better than system specifications.
    Since the completion of EOT, STSS activity has focused on expanding 
the performance envelope of the BMDS system and reducing risk for the 
follow-on operational capability, the Precision Tracking Space System 
(PTSS). In March 2011 during FTM-16, STSS demonstrated for the first 
time, space based sensor tracking of a missile flight from start to 
finish. STSS observed the target missile from launch through reentry 
and collected valuable data for Aegis BMD, PTSS and the Standard 
Missile-3 (SM-3), Block IIB programs. One week later, in FTX-16, STSS 
demonstrated stereo tracking from birth to death, again collecting 
valuable data. These tests serve to reduce risk for the Aegis Launch on 
Remote and Aegis Engage on Remote campaigns. These campaigns will 
demonstrate the functionality of the BMDS space layer integrated with 
the Aegis weapons system and extend Aegis coverage beyond the ship 
based radar envelope.
    In April 2011, STSS participated in a flight test (FTM-15). This 
associated test demonstrated the functions required of an operational 
BMDS space layer system. At the time of the target launch, both STSS 
satellites (SV1 and SV2) were out of view over the horizon. The STSS 
ground system received a cue from the Enterprise Sensors Lab formed 
from a TPY-2 radar track of the outbound target via C2BMC X-Lab. This 
emulates PTSS receiving a cue from SBIRS GEO. This cue was passed via 
the Air Force Satellite Control Network (AFSCN) to STSS space vehicle 2 
(SV2) which processed the cue and acquired and tracked the target. When 
SV1 was able to view the target, the cue was passed through SV2 to SV1 
across the STSS communication crosslink and SV1 acquired and tracked 
the target. SV1 remained out of AFSCN ground contact for the entire 
duration of the test, and SV1 track information was passed back through 
SV2 to the ground mission data processor which formed a stereo track of 
the target. This stereo track was used to cue a simulated interceptor 
launch from an Aegis system simulator prior to the target missile 
entering the Aegis radar system coverage (Launch on Remote). At the 
time of the actual intercept, SV2 was out of view, and SV1 observed the 
successful intercept.
    Mr. Lamborn. The FY12 budget request includes funds for a program 
called Precision Tracking Space System or PTSS. It appears that the MDA 
is moving forward with yet another clean sheet design for the Space 
Layer within the Ballistic Missile Defense System and doing so without 
fully completing the STSS tests and Knowledge Points. Can you explain 
the rational for this approach, and why the need to have such a system 
initiated via government labs and not within industry?
    General O'Reilly. The Space Tracking and Surveillance System--
Demonstration (STSS-D) completed all the tests necessary to demonstrate 
System Stereo Track Fully Calibrated Performance Knowledge Point (KP) 
and satisfy design requirements for PTSS.
    The STSS-D design uses a Space-Based Infrared System, Low Earth 
Orbit (SBIRS-Low) heritage gimbaled sensor design. The PTSS 
incorporates a Northern Hemisphere staring sensor which is far less 
complex, takes advantage of other Ballistic Missile Defense System 
(BMDS) functionality, and is expected to be more cost effective than 
the STSS-D gimbaled sensor.
    STSS-D demonstrated the first ever cradle-to-grave tracking from 
space in a series of flight tests (FTX-16, FTM-15 and FTM-16). These 
tests exercised the entire BMDS kill chain for the first time. The 
STSS-D also demonstrated launch-on and engage-on track accuracy in 
flight tests FTX-16 and FTM-15. STSS-D is a pathfinder for how PTSS 
will close the fire control loop with Aegis Ballistic Missile Defense 
from space. PTSS will take advantage of technical and design lessons 
learned from the STSS-D.
    PTSS is to be developed as an integrated part of the BMDS. This 
will require extensive participation of all elements as the preliminary 
design is developed. PTSS development phase will have involvement of 
Federally Funded Research Laboratories (Johns Hopkins Applied Physics 
Laboratory, MIT Lincoln Laboratory, Naval Research Laboratory, Space 
Dynamics Laboratory, Sandia National Laboratory); dedicated Service 
Cells of the Air Force and Navy; and an industry-partnered Integrated 
System Engineering Team (Ball Aerospace, Boeing, Lockheed Martin, 
Northrop Grumman, Orbital Sciences and Raytheon). These PTSS 
stakeholders will develop a non-proprietary, government-owned design 
and intellectual property to enable full and open competition for 
industry to produce the PTSS.

    Mr. Lamborn. The FY12 budget request includes funds for a program 
called Precision Tracking Space System or PTSS. It appears that the MDA 
is moving forward with yet another clean sheet design for the Space 
Layer within the Ballistic Missile Defense System and doing so without 
fully completing the STSS tests and Knowledge Points. Can you explain 
the rational for this approach, and why the need to have such a system 
initiated via government labs and not within industry?
    Mr. Ahern. The Space Tracking and Surveillance System--
Demonstration (STSS-D) completed all the tests necessary to demonstrate 
System Stereo Track Fully Calibrated Performance Knowledge Point (KP) 
and satisfy design requirements for PTSS.
    The STSS-D design uses a Space-Based Infrared System, Low Earth 
Orbit (SBIRS-Low) heritage gimbaled sensor design. The PTSS 
incorporates a Northern Hemisphere staring sensor which is far less 
complex, takes advantage of other Ballistic Missile Defense System 
(BMDS) functionality, and is expected to be more cost effective than 
the STSS-D gimbaled sensor.
    STSS-D demonstrated the first ever cradle-to-grave tracking from 
space in a series of flight tests (FTX-16, FTM-15 and FTM-16). These 
tests exercised the entire BMDS kill chain for the first time. The 
STSS-D also demonstrated launch-on and engage-on track accuracy in 
flight tests FTX-16 and FTM-15. STSS-D is a pathfinder for how PTSS 
will close the fire control loop with Aegis Ballistic Missile Defense 
from space. PTSS will take advantage of technical and design lessons 
learned from the STSS-D.
    PTSS is to be developed as an integrated part of the BMDS. This 
will require extensive participation of all elements as the preliminary 
design is developed. PTSS development phase will have involvement of 
Federally Funded Research Laboratories (Johns Hopkins Applied Physics 
Laboratory, MIT Lincoln Laboratory, Naval Research Laboratory, Space 
Dynamics Laboratory, Sandia National Laboratory); dedicated Service 
Cells of the Air Force and Navy; and an industry-partnered Integrated 
System Engineering Team (Ball Aerospace, Boeing, Lockheed Martin, 
Northrop Grumman, Orbital Sciences and Raytheon). These PTSS 
stakeholders will develop a non-proprietary, government-owned design 
and intellectual property to enable full and open competition for 
industry to produce the PTSS.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. Last month, Director of National Intelligence Clapper 
testified that Iran's long range ballistic missile program was more 
advanced than previously estimated--with Iran perhaps having a missile 
capable of reaching the USA in the 2015 to 2020 timeframe. The 
Administration's decision in 2009 to adopt a Phased Adaptive Approach 
(PAA) for missile defense in Europe was based, in part, on an 
assessment that Iran's short- and medium-range ballistic missiles were 
developing more rapidly than previously projected, while the longer-
range missile threat had been slower to develop than previously 
estimated.
    What trends in Iranian ballistic missile developments have you seen 
over the last two years that might change this assessment? Has the 
threat changed and to what degree?
    Dr. Roberts. The Intelligence Community continues to assess and 
evaluate Iranian progress toward achieving ICBM and nuclear 
capabilities that could threaten the U.S. homeland.
    A key factor in the decision to adopt the European Phased Adaptive 
Approach was that although Iran and other regional actors have not yet 
acquired or deployed ICBMs, the threat from shorter-range missiles has 
developed very quickly. For example, Iran already has hundreds of 
ballistic missiles that threaten its neighbors and U.S. forces, and it 
is actively developing and testing ballistic missiles that can reach 
beyond its neighbors and further into Europe. This capability poses a 
clear and present danger to U.S. deployed forces, Allies, and partners. 
Over the past two years, we have seen this trend continue.
    It is important to remember that our current ballistic missile 
defense posture already protects us from the potential emergence of an 
Iranian ICBM threat. The initial long-range threat from Iran would 
likely be ICBMs that are few in number. In order to maintain this 
advantageous position, the Administration is taking several steps to 
improve the protection of the homeland from the potential ICBM threat 
posed by Iran and North Korea. These steps include the continued 
procurement of ground-based interceptors (GBIs); the deployment of 
additional sensors; and upgrades to the Command, Control, Battle 
Management, and Communications system.
    Improvements to the Ground-based Midcourse Defense (GMD) system 
will better protect us against future ICBM threats, whether from Iran, 
North Korea, or other regional actors.
    Mr. Brooks. As discussed in the Ballistic Missile Defense Review, a 
hedging strategy would provide a robust defense of the U.S. homeland in 
case the Iranian long-range threat comes earlier or the later models of 
the SM-3 interceptor experience technical development problems. When 
Dr. Miller testified before the subcommittee last month, he discussed 
ongoing work within the Department to complete its hedging strategy. At 
what point do you believe a decision would be necessary if a hedge is 
to be employed and what criteria would be used to make such a decision? 
Does the FY12 budget request fund continued development and test of the 
two-stage ground-based interceptor (GBI)? Are other hedging options 
beyond the two-stage GBI being considered? Can you describe those 
options and the timeframes in which they may be available?
    Dr. Roberts. The current ballistic missile defense posture for the 
United States protects against ICBMs that might be deployed by States 
like North Korea or Iran. Improvements to the existing sensors and 
software, in addition to the procurement of additional ground-based 
interceptors (GBIs) and radars, will continue this protection against 
future ICBM threats from States like North Korea and Iran.
    In addition to these improvements, the United States must also be 
well hedged against the possibility of rapid threat developments or 
delays in U.S. technological advances. The Administration has already 
taken the following decisions to strengthen the U.S. hedge posture:

    <bullet>  The construction of Missile Field 2 at Fort Greely, 
Alaska, including a 14-silo configuration to accommodate a contingency 
deployment of eight additional GBIs, if needed;

    <bullet>  Six GBI silos at Missile Field 1 at Fort Greely are being 
mothballed instead of decommissioned, allowing their return to service 
within two years, if necessary; and

    <bullet>  The development and assessment of a two-stage GBI, which 
will continue to preserve future deployment options.

    The Administration is considering additional steps to strengthen 
the U.S. hedge posture. We are studying threat developments, future 
capabilities, and deployment options for a range of scenarios. In 
addition, we are evaluating the deployment timelines associated with 
fielding additional capabilities, with an eye to enabling rapid 
responses to triggering events. Our objective is to enable aggregate 
improvements that increase probability of kill, raid capacity, and 
battle space. This work involves a significant amount of classified 
information from both the Intelligence Community and the system 
developers. We have committed to brief the Committee on the results of 
this work in a classified setting once it is complete.
    Mr. Brooks. With MEADS no longer planned as the replacement for 
Patriot in the 2017 timeframe, what actions and investments are 
required by the Army, and when, to operate and sustain the legacy 
Patriot system beyond 2017? Are any of these funded in the FY12 
request? Does the Army see a need to improve or upgrade Patriot's 
capabilities? If so, what is the estimated cost of such improvements or 
upgrades as compared to the cost to complete MEADS development and 
production?
    Dr. Roberts. The U.S. Army can achieve some of the capabilities 
that MEADS would provide using existing assets. Because air and missile 
defense (AMD) systems are relatively few in number and high in demand, 
the U.S. AMD portfolio is based on the concept of integrating and 
fielding a diverse set of elements to provide expanded coverage against 
a wide range of threats. Our first priority in AMD is the Phased 
Adapted Approach (PAA) in Europe, which includes systems like THAAD, 
TPY-2, and AEGIS to counter the ballistic missile threat. The portfolio 
must also address threats in Southwest Asia and the Pacific with these 
ballistic missile defense systems, as well as other air defense systems 
such as Patriot and Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor (JLENS).
    The United States is willing to accept some risk in our air defense 
portfolio in the near term in order to increase investments in new 
capabilities that our soldiers can use today to counter threats in 
Forward Operating Bases in Afghanistan, such as capabilities to counter 
rockets, artillery, and mortars (C-RAM). By fielding a diverse set of 
systems, and integrating them, the United States is able to achieve 
some of the capabilities using existing assets, such as 360- degree 
coverage and extended range air defense, that MEADS is designed to 
provide.
    The U.S. Army has budgeted for fact-of-life upgrades to Patriot 
units necessary to keep these systems viable and up-to-date. The U.S. 
Army and the Office of the Secretary of Defense will conduct a thorough 
review of the air and missile defense portfolio as we do each year in 
light of budgets, capability needs, and the program changes made in the 
FY 2012 budget to ensure our programs are delivering what the 
warfighter needs. In addition, we will evaluate the results of the 
MEADS Proof of Concept to determine if MEADS elements could contribute 
to the U.S. air and missile defense architectures.
    Mr. Brooks. This committee has heard testimony that MEADS 
technology will be ``harvested'' and ``put on the shelf'' for 
integration into a future system or systems. What technologies can be 
``harvested'' from MEADS for a future system(s)?
    How much will it cost to integrate these harvested technologies 
into a future system? Has a cost-benefit analysis been performed to 
show that it save money and increase capability to harvest technology 
for integration into Patriot or other systems versus completing and 
fielding MEADS? If so, can you provide that analysis to the Committee? 
If not, why not? And what did you base your decision to not procure 
MEADS upon?
    Dr. Roberts. The U.S. Army is developing plans to integrate sensor 
and interceptor components from U.S. Army air and missile defense 
systems like Patriot, JLENS, and Sentinel into the U.S. Army Integrated 
Air and Missile Defense (IAMD) network. This effort, when complete and 
fielded with the U.S. Army Integrated Battle Command System (IBCS), 
will mitigate some risks to meeting the validated Patriot/MEADS 
Combined Program requirements, and will allow the United States to 
employ more flexible and effective air and missile defense task force 
configurations. Given the decision to not procure MEADS, the U.S. Army 
and the Office of the Secretary of Defense (OSD) will investigate 
whether additional upgrades to enhance Patriot against evolving threats 
are needed. In addition, the U.S. Army and OSD will evaluate 
technologies demonstrated during the MEADS Proof of Concept effort to 
determine if key elements like the lightweight launcher or the 360-
degree radars could be included in the evolving IAMD network to 
mitigate shortfalls in the Patriot/MEADS requirement. Details on the 
full scope of the Proof of Concept effort are being worked, but already 
we can say the Proof of Concept will mature technologies related to the 
delivery of: two lightweight launchers; two, 360-degree X-band fire 
control radars; three tactical operations centers; one prototype 360-
degree UHF-band surveillance radar; ground testing; and two intercept 
flight tests. Complete system design and performance documentation will 
also be delivered to the participating nations. Beyond the demonstrated 
hardware and design documentation, a number of advanced technologies 
will be matured for harvesting under the Proof of Concept, including: 
360-degree Patriot Missile Segment Enhancement engagement solution 
logic and algorithms; X-band exciter design and performance data; 
improved launcher electronics and near-vertical launch design/
performance data; power and cooling technologies for rotating phased-
array radars; techniques and algorithms for track fusion from multi-
spectral (UHF and X-band) sensors; advanced prognostic and diagnostics 
logistics; and design for reduced personnel requirements.
    Because the U.S. Army has chosen to integrate all U.S. Army air and 
missile defense components via the Integrated Air and Missile Defense 
Battle Command System (IBCS), the MEADS command and control element, 
the Battle Management, Command, Control Communications, Computers, and 
Intelligence (BMC4I), in development for the MEADS program, is now a 
redundant capability for the United States. Although the United States 
no longer needs to field a MEADS-unique command and control element, 
the MEADS partner nations, Germany and Italy, still desire the BMC4I. 
The U.S. Army and OSD Cost Assessment and Program Evaluation (CAPE) 
assessed whether the MEADS BMC4I could meet the U.S. Army IAMD 
requirements in August 2007 and found: ``Use of the MEADS Tactical 
Operating Center (TOC) as an interim solution for IAMD would . . . 
require significant investment in `U.S. only' software and hardware 
that could not be carried over to the final IAMD configuration.'' 
Subsequent independent reviews of MEADS in 2008 and 2009 supported the 
position that the MEADS BMC4I should not be procured and that the 
United States should continue the move to integration of the range of 
disparate sensor and shooter elements within the Army IAMD/IBCS 
architecture.
    The total U.S. cost commitment for the Design and Development (D & 
D) program is $2.3B, of which the United States has funded $1.5B to 
date; the remaining U.S. Memorandum of Understanding (MOU) commitment, 
which will enable the Proof of Concept, is $804M. It is important to 
recognize the costs that the United States will avoid by its decision 
not to produce MEADS and to agree with its partners to limit the 
development to the Proof of Concept. The OSD CAPE estimates that an 
additional $1.16B of U.S. funding would be required to complete the D&D 
effort as originally contemplated. By restructuring to a Proof of 
Concept, the United States avoids this additional cost, which is on top 
of the U.S. MOU funding commitment of $804M already programmed for 
MEADS. Moreover, an additional $800M would be required to complete 
U.S.-unique national certification, operational testing requirements, 
and integration into U.S. air and missile defense architectures. 
Finally, roughly $1.2B that was programmed in the Future Years Defense 
Program (FYDP) for MEADS procurement is no longer required.
    Given the high costs, the United States cannot afford to purchase 
MEADS and make required upgrades to Patriot concurrently over the next 
two decades. The costs of completing MEADS development and procuring 
MEADS to replace Patriot eventually would also require a significant 
concurrent investment in Patriot sustainment and modernization over the 
next two decades. Together, these costs are unaffordable in the current 
DoD budget environment.
    Mr. Brooks. In a recent Washington Times article, it was reported 
that the Russian government is interested in acquiring our ``hit-to-
kill'' technology. In your opinion, what would be the impact of Russia 
acquiring ``hit-to-kill'' technology?
    In the event of such a technology transfer, are you confidant that 
measures could be taken to ensure the technology is not proliferated to 
foreign powers who may use it to defeat our current and future missile 
defense systems?
    Dr. Roberts. There has been no discussion of sharing hit-to-kill 
technology with Russia, and there is no intention to do so.
    We are keenly aware of the risks of sharing sensitive U.S. 
technology and information. To safeguard this information, we are 
working to conclude a Defense Technology Cooperation (DTC) Agreement 
with Russia. This agreement would provide the legal framework for 
undertaking cooperative efforts, and would contain annexes that address 
the sharing of Controlled Unclassified Information (CUI) as well as 
Classified Information. But this on its own would not constitute 
authorization to provide Classified Information to Russia. Any exchange 
of Classified Information with Russia would still be subject to an 
extensive review process under U.S. National Disclosure Policy, as is 
the case with other partners.

    Mr. Brooks. Last month, Director of National Intelligence Clapper 
testified that Iran's long range ballistic missile program was more 
advanced than previously estimated--with Iran perhaps having a missile 
capable of reaching the USA in the 2015 to 2020 timeframe. The 
Administration's decision in 2009 to adopt a Phased Adaptive Approach 
(PAA) for missile defense in Europe was based, in part, on an 
assessment that Iran's short- and medium-range ballistic missiles were 
developing more rapidly than previously projected, while the longer-
range missile threat had been slower to develop than previously 
estimated.
    What trends in Iranian ballistic missile developments have you seen 
over the last two years that might change this assessment? Has the 
threat changed and to what degree?
    General O'Reilly. [The information referred to is classified and is 
retained in the subcommittee files].
    Mr. Brooks. As discussed in the Ballistic Missile Defense Review, a 
hedging strategy would provide a robust defense of the U.S. homeland in 
case the Iranian long-range threat comes earlier or the later models of 
the SM-3 interceptor experience technical development problems. When 
Dr. Miller testified before the subcommittee last month, he discussed 
ongoing work within the Department to complete its hedging strategy.
    At what point do you believe a decision would be necessary if a 
hedge is to be employed and what criteria would be used to make such a 
decision? Does the FY12 budget request fund continued development and 
test of the two-stage ground-based interceptor (GBI)? Are other hedging 
options beyond the two-stage GBI being considered? Can you describe 
those options and the timeframes in which they may be available?
    General O'Reilly. Today, 30 operational GBIs protect the United 
States against a medium ICBM raid size launched from current regional 
threats. The FY12 budget funds continued development and test of the 
two-stage GBI as we prepare for an intercept mission in 2014. 
Completing GMD missile field 2 with 8 spare silos and placing missile 
field 1 in a mode where its 6 additional silos can be hardened and made 
operational within two years are two examples of developing greater 
homeland defense capability if a credible ICBM threat emerges from Iran 
before 2020.
    As Dr. Roberts stated in his testimony, the Defense Department is 
reviewing what more needs to be done to ensure the hedge posture is 
sufficient to deal with the possible threat developments in the time 
frame before 2020 and what are the intelligence data required to employ 
a hedge. And the Department is committed to bringing that work forward 
as soon as the Secretary is satisfied that it is complete.
    Mr. Brooks. With MEADS no longer planned as the replacement for 
Patriot in the 2017 timeframe, what actions and investments are 
required by the Army, and when, to operate and sustain the legacy 
Patriot system beyond 2017? Are any of these funded in the FY12 
request? Does the Army see a need to improve or upgrade Patriot's 
capabilities? If so, what is the estimated cost of such improvements or 
upgrades as compared to the cost to complete MEADS development and 
production?
    General O'Reilly. The Army currently has program support and 
budgetary responsibility for the MEADS program. I defer to Army's 
senior leadership on questions pertaining to costs associated with this 
program.
    Mr. Brooks. This committee has heard testimony that MEADS 
technology will be ``harvested'' and ``put on the shelf'' for 
integration into a future system or systems. What technologies can be 
``harvested'' from MEADS for a future system(s)?
    How much will it cost to integrate these harvested technologies 
into a future system? Has a cost-benefit analysis been performed to 
show that it save money and increase capability to harvest technology 
for integration into Patriot or other systems versus completing and 
fielding MEADS? If so, can you provide that analysis to the Committee? 
If not, why not? And what did you base your decision to not procure 
MEADS upon?
    General O'Reilly. The Army currently has program support and 
budgetary responsibility for the MEADS program. I defer to Army's 
senior leadership on questions pertaining to cost associated with this 
program.
    Mr. Brooks. In a recent Washington Times article, it was reported 
that the Russian government is interested in acquiring our ``hit-to-
kill'' technology. In your opinion, what would be the impact of Russia 
acquiring ``hit-to-kill'' technology?
    In the event of such a technology transfer, are you confidant that 
measures could be taken to ensure the technology is not proliferated to 
foreign powers who may use it to defeat our current and future missile 
defense systems?
    General O'Reilly. The US government has not offered to share `hit-
to-kill' technology with the Russian Federation. More broadly, in 
accordance with U.S. National Disclosure Policy, decisions to disclose 
U.S. classified military information to a foreign government or 
international organization are based on a determination that the 
recipient has both the capability and intent to protect the information 
equivalent to that of the U.S. Government.

    Mr. Brooks. Last month, Director of National Intelligence Clapper 
testified that Iran's long range ballistic missile program was more 
advanced than previously estimated--with Iran perhaps having a missile 
capable of reaching the USA in the 2015 to 2020 timeframe. The 
Administration's decision in 2009 to adopt a Phased Adaptive Approach 
(PAA) for missile defense in Europe was based, in part, on an 
assessment that Iran's short- and medium-range ballistic missiles were 
developing more rapidly than previously projected, while the longer-
range missile threat had been slower to develop than previously 
estimated.
    What trends in Iranian ballistic missile developments have you seen 
over the last two years that might change this assessment? Has the 
threat changed and to what degree?
    Mr. Ahern. [The information referred to is classified and is 
retained in the subcommittee files].
    Mr. Brooks. As discussed in the Ballistic Missile Defense Review, a 
hedging strategy would provide a robust defense of the U.S. homeland in 
case the Iranian long-range threat comes earlier or the later models of 
the SM-3 interceptor experience technical development problems. When 
Dr. Miller testified before the subcommittee last month, he discussed 
ongoing work within the Department to complete its hedging strategy.
    At what point do you believe a decision would be necessary if a 
hedge is to be employed and what criteria would be used to make such a 
decision? Does the FY12 budget request fund continued development and 
test of the two-stage ground-based interceptor (GBI)? Are other hedging 
options beyond the two-stage GBI being considered? Can you describe 
those options and the timeframes in which they may be available?
    Mr. Ahern. The current ballistic missile defense posture for the 
United States protects against intercontinental ballistic missiles 
(ICBMs) that might be deployed by States like North Korea or Iran. 
Improvements to the existing sensors and software, in addition to the 
procurement of additional ground-based interceptors (GBIs) and radars, 
will continue this protection against future ICBM threats from States 
like North Korea and Iran. The timing and criteria for decisions on 
hedge strategy changes will depend on development of the threat. Should 
a significant departure from the current hedge strategy be required, 
the details and timing would be briefed to Congress in a classified 
setting.
    Today, 30 operational GBIs protect the United States against a 
medium ICBM raid size launched from current regional threats. The FY12 
budget funds will continue development and test of the two-stage GBI as 
we prepare for an intercept mission in 2014. Completing GMD missile 
field 2 with 8 spare silos and placing missile field 1 in a mode where 
its 6 additional silos can be hardened and made operational within two 
years are two examples of developing greater homeland defense 
capability should a credible ICBM threat emerges from Iran before 2020.
    The Administration is considering additional steps to strengthen 
the U.S. hedge posture. We are studying threat developments, future 
capabilities, and deployment options for a range of scenarios. In 
addition, we are evaluating the deployment timelines associated with 
fielding additional capabilities, in order to enable rapid responses to 
triggering events. Our objective is to enable aggregate improvements 
that increase probability of kill, raid capacity, and battle space. 
This work involves a significant amount of classified information from 
both the Intelligence Community and the system developers. We have 
committed to brief the Committee on the results of this work in a 
classified setting once it is complete.
    Mr. Brooks. With MEADS no longer planned as the replacement for 
Patriot in the 2017 timeframe, what actions and investments are 
required by the Army, and when, to operate and sustain the legacy 
Patriot system beyond 2017? Are any of these funded in the FY12 
request? Does the Army see a need to improve or upgrade Patriot's 
capabilities? If so, what is the estimated cost of such improvements or 
upgrades as compared to the cost to complete MEADS development and 
production?
    Mr. Ahern. The U.S. Army can achieve some of the capabilities that 
MEADS would provide using existing assets. Because air and missile 
defense (AMD) systems are relatively few in number and high in demand, 
the U.S. AMD portfolio is based on the concept of integrating and 
fielding a diverse set of elements to provide expanded coverage against 
a wide range of threats.
    The Army FY12 budget includes funding for fact-of-life upgrades to 
Patriot units necessary to keep these systems viable and up-to-date. 
The Army is preparing for their 2011 Capability Portfolio Review (CPR) 
on Air and Missile Defense which will be conducted over the summer. The 
Army CPR and subsequent Office of the Secretary of Defense-level 
Program Issue team reviews will update and validate 2010 assessments on 
Ballistic Missile Defense, Counter-Rockets, Artillery, and Mortars, and 
Air Defense that led to program budget decisions, including the 
decision to restructure development and not procure MEADS. The summer 
reviews will also evaluate the impacts of the FY12 budget decisions and 
investigate ways to mitigate any risks or long-term capability gaps 
created by the MEADS decision, to include evaluation of MEADS sensor 
and launcher elements. In addition, the Missile Defense Agency (MDA) in 
conjunction with the Army is performing a military utility assessment 
of MEADS elements (as well as other combinations of Army missile 
defense capabilities) to evaluate the contribution of MEADS elements to 
the nation's missile defense capabilities. Finally, the reviews will 
assess other (non-Army or MDA) sensor development efforts within the 
Department where potential for leveraging the MEADS radars exists. One 
outcome will be a DoD-level business case evaluation to determine if 
harvested elements from MEADS provide cost-effective capability 
enhancements in air surveillance and/or air and missile defense when 
integrated into existing architectures. This business case evaluation 
will include an assessment of the benefits of a competitive environment 
for mobile, ground-based air and missile capability.
    Mr. Brooks. This committee has heard testimony that MEADS 
technology will be ``harvested'' and ``put on the shelf'' for 
integration into a future system or systems. What technologies can be 
``harvested'' from MEADS for a future system(s)?
    How much will it cost to integrate these harvested technologies 
into a future system? Has a cost-benefit analysis been performed to 
show that it save money and increase capability to harvest technology 
for integration into Patriot or other systems versus completing and 
fielding MEADS? If so, can you provide that analysis to the Committee? 
If not, why not? And what did you base your decision to not procure 
MEADS upon?
    Mr. Ahern. By pursuing the MEADS Proof of Concept, the U.S. gets 
the opportunity to harvest technologies for future, and potentially 
near-term integration into air and missile defense systems. Our 
Partners have told us that they intend to continue with the program. By 
honoring our MEADS commitment, we will be supporting our Partners in 
building their air and missile defense capacity, which will allow NATO 
to contribute more air and missile defense capabilities when needed, 
easing the strain on our forces and freeing resources for other 
priorities. Conversely, limiting the remaining funding for MEADS would 
have serious negative effects on U.S. and Partner air and missile 
defense capability.
    Details on the full scope of the Proof of Concept effort are being 
worked, but already we can say the Proof of Concept will mature 
advanced air and missile defense technologies related to the delivery 
of: 2 lightweight, near-vertical launchers, 2 rotating, 360-degree X-
band fire control radars, 3 mobile tactical operations centers, 1 
prototype 360-degree UHF-band surveillance radar, verification ground 
testing, and 2 intercept flight tests with the next-generation PAC-3 
Missile Segment Enhancement missile. Complete system design and 
performance documentation will also be delivered to the Nations. Beyond 
the demonstrated hardware and design documentation, a number of 
advanced technologies will be matured for harvesting under the Proof of 
Concept. These include: 360-degree PATRIOT Missile Segment Enhancement 
engagement solution logic and algorithms; X-band exciter design and 
performance data; improved launcher electronics and near-vertical 
launch design/performance data; power and cooling technologies for 
rotating phased-array radars; techniques and algorithms for track 
fusion from multi-spectral (UHF and X-band) sensors; advanced 
prognostic and diagnostics logistics; and design for reduced personnel 
requirements.
    The Army is preparing for their 2011 Capability Portfolio Review 
(CPR) on Air and Missile Defense which will be conducted over the 
summer. The Army CPR and subsequent OSD-level Program Issue team 
reviews will update and validate 2010 assessments on Ballistic Missile 
Defense, Counter-Rockets, Artillery, and Mortars, and Air Defense that 
led to program budget decisions, including the decision to restructure 
development and not procure MEADS. The summer reviews will also 
evaluate the impacts of the FY12 budget decisions and investigate ways 
to mitigate any risks or long-term capability gaps created by the MEADS 
decision, to include evaluation of MEADS sensor and launcher elements. 
In addition, the Missile Defense Agency (MDA) in conjunction with the 
Army is performing a military utility assessment of MEADS elements (as 
well as other combinations of Army missile defense capabilities) to 
evaluate the contribution of MEADS elements to the nation's missile 
defense capabilities. Finally, the reviews will assess other (non-Army 
or MDA) sensor development efforts within the Department where 
potential for leveraging the MEADS radars exists. One outcome will be a 
DoD-level business case evaluation to determine if harvested elements 
from MEADS provide cost-effective capability enhancements in air 
surveillance and/or air and missile defense when integrated into 
existing architectures. This business case evaluation will include an 
assessment of the benefits of a competitive environment for mobile, 
ground-based air and missile capability.
    The successful August 2010 MEADS Critical Design Review that the 
MEADS rotating sensor elements are highly capable and that the mature 
designs represent a significant advance in current capabilities. Based 
on the maturity of MEADS system development efforts and completion of 
the envisioned Proof of Concept efforts, the Department is confident 
MEADS components will provide attractive options with respect to 
fielding future DoD air and missile defense capabilities if 
demonstration and testing is completed in the Proof of Concept. Those 
MEADS elements of most interest to the U.S., the Fire Control and 
Surveillance Radars, and the lightweight launcher, are very near the 
end of the non-recurring engineering and development phase and ready 
for demonstration (Proof of Concept) that would easily lead to low rate 
initial production, additional testing, and fielding if a requirement 
is generated from assessments described above.
    MEADS is designed to provide continuous, medium-range 360-degree 
air and missile defense coverage. This capability, a Joint Staff 
validated requirement, is nonexistent in the U.S.'s land-based air 
defense portfolio. The Department will seek innovative ways to leverage 
the components developed under the MEADS program to meet this 
requirement, without having to pay to replace the proven Patriot system 
battalion-for-battalion. Such replacement would be cost prohibitive and 
given advances in the Army's Integrated Battle Command System, with its 
ability to integrate disparate components like radars, launchers, and 
interceptors from a variety of vendors, it is no longer necessary. We 
can now plan to modernize and augment our capabilities with next-
generation elements as needed. The MEADS high-performance X-band fire 
control and UHF-band long-range surveillance and lightweight launcher 
with Patriot Advanced Capability-3 Missile Segment Enhancement (PAC-3 
MSE) missiles could provide that added capability at a significantly 
reduced cost, adding continuous 360-degree coverage and longer-range 
intercepts, while requiring reduced strategic lift, less personnel, and 
more robust logistics.
    In summary, there are four reasons why the U.S. believes refocusing 
the MEADS program to a proof of concept and forgoing full production 
was the right choice for all the MEADS partners: 1) As described above, 
funding MEADS up to the agreed Memorandum of Understanding (MoU) cost 
ceiling enables partners to harvest technology from large investment to 
date; 2) the U.S cannot afford to purchase MEADS and make required 
upgrades to Patriot concurrently over the next two decades. The costs 
of completing MEADS development and procuring MEADS to eventually 
replace Patriot would also require a significant concurrent investment 
in Patriot sustainment and modernization over the next two decades. 
Together, these costs are unaffordable; 3) as described above, the U.S. 
can achieve some of the capabilities that MEADS provides using existing 
assets; 4) the U.S. remains concerned with the overall track record of 
the program and the risks of moving to full scale production of a MEADS 
system.
    Mr. Brooks. In a recent Washington Times article, it was reported 
that the Russian government is interested in acquiring our ``hit-to-
kill'' technology. In your opinion, what would be the impact of Russia 
acquiring ``hit-to-kill'' technology?
    In the event of such a technology transfer, are you confident that 
measures could be taken to ensure the technology is not proliferated to 
foreign powers who may use it to defeat our current and future missile 
defense systems?
    Mr. Ahern. The US government has not offered to share `hit-to-kill' 
technology with the Russian Federation. More broadly, in accordance 
with U.S. National Disclosure Policy, decisions to disclose U.S. 
classified military information to a foreign government or 
international organization are based on a determination that the 
recipient has both the capability and intent to protect the information 
equivalent to that of the U.S. Government.

    Mr. Brooks. Last month, Director of National Intelligence Clapper 
testified that Iran's long range ballistic missile program was more 
advanced than previously estimated--with Iran perhaps having a missile 
capable of reaching the USA in the 2015 to 2020 timeframe. The 
Administration's decision in 2009 to adopt a Phased Adaptive Approach 
(PAA) for missile defense in Europe was based, in part, on an 
assessment that Iran's short- and medium-range ballistic missiles were 
developing more rapidly than previously projected, while the longer-
range missile threat had been slower to develop than previously 
estimated.
    What trends in Iranian ballistic missile developments have you seen 
over the last two years that might change this assessment? Has the 
threat changed and to what degree?
    Dr. Gilmore. My knowledge of recent trends in Iranian ballistic 
missile developments is consistent with Director Clapper's assessment. 
However, threat estimates and trends are best addressed by the 
intelligence communities.
    Mr. Brooks. As discussed in the Ballistic Missile Defense Review, a 
hedging strategy would provide a robust defense of the U.S. homeland in 
case the Iranian long-range threat comes earlier or the later models of 
the SM-3 interceptor experience technical development problems. When 
Dr. Miller testified before the subcommittee last month, he discussed 
ongoing work within the Department to complete its hedging strategy.
    At what point do you believe a decision would be necessary if a 
hedge is to be employed and what criteria would be used to make such a 
decision? Does the FY12 budget request fund continued development and 
test of the two-stage ground-based interceptor (GBI)? Are other hedging 
options beyond the two-stage GBI being considered? Can you describe 
those options and the timeframes in which they may be available?
    Dr. Gilmore. The Integrated Master Test Plan (IMTP) that General 
O'Reilly and I recently approved includes two intercept flight tests 
using the two-stage Ground-Based Interceptor (GBI), the first against 
an Intermediate Range Ballistic Missile (IRBM) target and the second 
against an Intercontinental Ballistic Missile (ICBM) target.
    Each flight test will demonstrate the ability of the two-stage GBI 
to boost the Exo-atmospheric Kill Vehicle (EKV) to a position from 
which it can successfully complete an intercept of the IRBM or ICBM. 
Once the EKV is separated from the two-stage GBI, final intercept and 
kill performance is independent of the GBI used (two-stage or three-
stage) and is demonstrated on every Ground-based Midcourse Defense 
flight test. Each time a three-stage GBI is tested, essentially all of 
the hardware used in the two-stage GBI is also tested; only the 
software to support the two-stage fly out performance is different. 
Including operational testing, the IMTP contains 9 more tests of three-
stage GBIs through Fiscal Year 2021.
    Hedging options to be pursued and associated decision criteria are 
determined by the Secretary of Defense and by offices other than DOT&E.
    Mr. Brooks. With MEADS no longer planned as the replacement for 
Patriot in the 2017 timeframe, what actions and investments are 
required by the Army, and when, to operate and sustain the legacy 
Patriot system beyond 2017? Are any of these funded in the FY12 
request? Does the Army see a need to improve or upgrade Patriot's 
capabilities? If so, what is the estimated cost of such improvements or 
upgrades as compared to the cost to complete MEADS development and 
production?
    Dr. Gilmore. The Joint Chiefs of Staff are conducting a Joint 
Capabilities Mix Study to determine future requirements for air and 
missile defense systems, including the Patriot system. Based upon the 
study's recommendations and other considerations, the Department's 
senior leadership will determine how best to proceed. Questions 
regarding program costs are best directed to the USD(AT&L) and the 
Director, CAPE.
    Mr. Brooks. This committee has heard testimony that MEADS 
technology will be ``harvested'' and ``put on the shelf'' for 
integration into a future system or systems. What technologies can be 
``harvested'' from MEADS for a future system(s)?
    How much will it cost to integrate these harvested technologies 
into a future system? Has a cost-benefit analysis been performed to 
show that it save money and increase capability to harvest technology 
for integration into Patriot or other systems versus completing and 
fielding MEADS? If so, can you provide that analysis to the Committee? 
If not, why not? And what did you base your decision to not procure 
MEADS upon?
    Dr. Gilmore. Please refer to my answer above. Once the required 
capabilities are determined, it should be possible to develop a cost 
estimate for developing and/or integrating them. Questions regarding 
program costs and whether or not a cost-benefit analysis has been 
conducted are best directed to the USD(AT&L). DOT&E has played no role 
in decisions made regarding MEADS.
    Mr. Brooks. In a recent Washington Times article, it was reported 
that the Russian government is interested in acquiring our ``hit-to-
kill'' technology. In your opinion, what would be the impact of Russia 
acquiring ``hit-to-kill'' technology?
    In the event of such a technology transfer, are you confidant that 
measures could be taken to ensure the technology is not proliferated to 
foreign powers who may use it to defeat our current and future missile 
defense systems?
    Dr. Gilmore. Our ``hit-to-kill'' technologies are being developed 
by the United States only as a defensive capability to counter 
offensive ballistic missiles. Russian interest in this technology would 
be of concern if that interest was rooted in acquiring a counter-
countermeasure capability to defeat our kill vehicles in flight.
    Issues of non-proliferation are best addressed by the OUSD(Policy).

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
